Report No. D-2007-121         September 12, 2007




    Emergency Supplemental Appropriations
     for DoD Needs Arising From Hurricane
      Katrina at Selected DoD Components
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AAFES                 Army and Air Force Exchange Service
AFB                   Air Force Base
DCMA                  Defense Contract Management Agency
DeCA                  Defense Commissary Agency
DESC                  Defense Energy Support Center
DFAS                  Defense Finance and Accounting Service
DHP                   Defense Health Program
DLA                   Defense Logistics Agency
DoDEA                 Department of Defense Education Activity
DoD IG                DoD Inspector General
FEMA                  Federal Emergency Management Agency
FMR                   Financial Management Regulation
MIPR                  Military Interdepartmental Purchase Request
NASA                  National Aeronautics and Space Administration
O&M                   Operations and Maintenance
TMA                   Tricare Management Activity
USD(C)                Under Secretary of Defense (Comptroller)
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
USSOCOM               United States Special Operations Command
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
 

                               400 ARMY NAVY DRIVE
 

                          ARLINGTON, VIRGINIA 22202-4704
 




                                                                      September 12,2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DIRECTOR, DEFENSE COMMISSARY AGENCY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

 SUBJECT:	 Report on Emergency Supplemental Appropriations for DoD Needs Arising
           From Hurricane Katrina at Selected DoD Components
           (Report No. D-2007-121)


         We are providing this report for your review and comment. This audit was
 performed in support of Public Law 109-62. We considered management comments on a
 draft of this report in preparing the final report.

         DoD 7650.3 requires that all issues be resolved promptly. The Under Secretary of
 Defense (Comptroller) comments of the draft report conformed to the requirements of
 DoD Directive 7650.3; therefore, additional comments are not required. The Defense
 Finance and Accounting Service did not concur with Recommendation 2. We request
 that the Director, Defense Finance and Accounting Service reconsider his decision and
 provide additional comments to the final report and Recommendation 2 by October 22,
 2007.

         We request that management provide comments that conform to the requirements
 of DoD Directive 7650.3. Ifpossible, please send management comments in electronic
 format (Adobe Acrobat file only) to auddfs@dodig.mil. Copies of the management
 comments must contain the actual signature of the authorizing official. We cannot accept
 the / Signed / symbol in place of the actual signature. If you arrange to send classified
 comments electronically, they must be sent over the SECRET Internet Protocol Router
 Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
 to Ms. Lorin T. Pfeil at (703) 325-5568 (DSN 221-5568) or Mr. Henry Y. Adu at (703)
 325-6008 (DSN 221-6008). See Appendix D for the report distribution. The team
 members are listed inside the back cover.

                                By direction of the Deputy Inspector General for Auditing:


                                          /u4:~ -
                                          Paul 1.~etto,    CPA
 

                                 Assistant Inspector General and Director
 

                                  Defense Financial Auditing Services
 

                Department of Defense Office of Inspector General
Report No. D-2007-121                                                 September 12, 2007
   (Project No. D2006-D000FE-0010.002)

         Emergency Supplemental Appropriations for DoD Needs 

           Arising From Hurricane Katrina at Selected DoD 

                           Components 


                                 Executive Summary 


Who Should Read This Report and Why? Military and civilian personnel who
manage and account for DoD appropriated funds should read this report. This report
discusses the management and use of funds appropriated for DoD needs arising from
hurricanes in the 2005 hurricane season.

Background. There were 15 hurricanes in the 2005 hurricane season, which began on
June 1 and ended on November 30, 2005. Seven of these became major hurricanes,
which included Hurricanes Katrina, Rita, and Wilma. On August 29, 2005, Hurricane
Katrina made landfall at the U.S. Gulf Coast causing severe damage and loss of life in
Alabama, Louisiana, and Mississippi. Hurricane Rita made landfall at the
Texas-Louisiana border on September 24, 2005, causing severe damage in the affected
areas. Hurricane Wilma made landfall at Florida on October 24, 2005. The President
declared the affected locations disaster areas, making them eligible to receive Federal
funding. The Federal Emergency Management Agency (FEMA), the primary Federal
agency responsible for providing emergency relief in the United States, gave
reimbursable funding authority to DoD to provide support and other humanitarian
assistance to the victims of the hurricanes. Congress also provided emergency
supplemental appropriations to DoD for DoD needs arising from Hurricane Katrina and
other hurricanes in the 2005 hurricane season.

In a September 15, 2005, letter to the Secretary of Homeland Security, the House
Government Reform Committee and its Subcommittee on Financial Management (now
the Subcommittee on Government Management, Organization, and Procurement) tasked
the Secretary to coordinate with the DoD Office of Inspector General to audit and
provide oversight to ensure that FEMA funds were used for their intended purposes. We
issued our report on that audit on September 27, 2006. We expanded the scope of our
audit to include the emergency supplemental appropriations to meet DoD needs arising
from Hurricane Katrina. We have used the term Hurricane Katrina to describe the DoD
needs arising from all hurricanes in the 2005 hurricane season. This report is one in a
series discussing the use of DoD resources to support the Hurricane Katrina relief efforts.

Results. We performed this audit to determine if the emergency supplemental
appropriations for DoD needs arising from Hurricane Katrina were used for their
intended purposes. Generally, the DoD Components we visited used the emergency
supplemental appropriations for these needs. However, some of the Components did not
manage the emergency supplemental appropriations efficiently. Components
inefficiently used or allowed about $26.8 million emergency supplemental appropriated
funds, that could have been used by other Components for their Hurricane Katrina needs,
to expire. One Component used $219,347 of the emergency supplemental appropriation
for needs that did not result from Hurricane Katrina, and three Components used about
$935,680 of the emergency supplemental appropriations to pay for expenses that were
reimbursable by FEMA, but did not seek reimbursement from FEMA. In addition, other
Components used about $2.1 million of their regular appropriations for their Hurricane
Katrina needs. At some of the Components, we could not determine if the funds were
expended on their Hurricane Katrina needs because they did not use unique accounting
codes to collect and record their Hurricane Katrina transactions. (See the Finding section
of the report for the detailed recommendations.) Implementing the recommendations
would allow DoD to put funds to better use when natural disasters occur by improving
funds allocation processes and DoD could also recover $935,680 reimbursement from
FEMA. (See Appendix C for a summary of potential monetary benefits.)

Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer partially concurred with Recommendations 1.a., 1.b., and 1.d., and concurred
with Recommendation 1.c. The Deputy Director, Defense Finance and Accounting
Service (DFAS) Columbus nonconcurred with Recommendation 2. Although
management comments were not required, the Director, Defense Commissary Agency
(DeCA) provided comments on the draft report. See the finding section for a discussion
of management comments and the Management Comments section of the report for a
complete text of the comments.

The comments from the Acting Deputy Chief Financial Officer are responsive and no
additional comments are required. Although DFAS did not concur with the
recommendations, DFAS comments partially met the intent of the recommendation.
However, the comments indicate that DFAS is more concerned with the amount of an
error on a paid voucher than with the consistent frequency that errors occurred on paid
vouchers. Regardless of the amount paid because of errors as indicated in the comments,
there is an indication of an inherent systemic problem in the processing and payment of
vouchers at the DFAS Columbus Travel Office. We request that DFAS reconsider its
position on the recommendation and provide comments on the final report by October 22,
2007. The DeCA comments are incorrect and inconsistent with information provided to
us. The DeCA headquarters personnel told us that property records were maintained at
the stores and everything (including the equipment records) at hurricane-damaged stores
were destroyed. DeCA did not, and could not have been able to, provide us with
“non-accountable equipment purchase history of 35 percent of the total equipment
purchases for the hurricane-damaged stores” as stated in the comments. Also, in an
August 22, 2006, e-mail message to us, DeCA Chief of Program Control and Customer
Support stated that DeCA tried to find what percentage of non-accountable property was
compared to equipment inventory and came up with a range of 33-35 percent; she used
35 percent as an educated estimate. In addition, the amounts reported in the comments as
equipment purchases for hurricane-damaged stores are post Hurricane Katrina purchases
and have no relevance to the 35 percent factor which they told us was based on historical
purchases.




                                            ii
Table of Contents 


Executive Summary                                                           i


Background                                                                  1


Objectives                                                                  2


Finding
     Compliance With the Emergency Supplemental Appropriations for DoD 

       Needs Arising From Hurricane Katrina                                 3


Appendixes
     A. Scope and Methodology                                              22 

     B. DoD Emergency Supplemental Appropriations (Other Than the U.S. 

          Army Corps of Engineers) by Public Law                           30 

     C. Summary of Potential Monetary Benefits                             33 

     D. Report Distribution                                                34 


Management Comments
     Under Secretary of Defense (Comptroller)                              37 

     Defense Finance and Accounting Service                                40 

     Defense Commissary Agency                                             43 

Background 

    There were 15 hurricanes in the 2005 hurricane season, which began June 1 and
    ended November 30, 2005. Seven of these became major hurricanes, which
    included Hurricanes Katrina, Rita, and Wilma. On August 29, 2005, Hurricane
    Katrina made landfall at the U.S. Gulf Coast causing severe damage and loss of
    life in Alabama, Louisiana, and Mississippi. Hurricane Rita made landfall at the
    Texas-Louisiana border on September 24, 2005, causing severe damage in the
    affected areas. Hurricane Wilma made landfall at Florida on October 24, 2005.
    The President declared the affected locations disaster areas, making them eligible
    to receive Federal funding. Between September 2005 and June 2006, Congress
    provided four emergency supplemental appropriations to DoD to meet DoD needs
    arising from Hurricane Katrina and other hurricanes in the 2005 hurricane season.
    We have used the term Hurricane Katrina to describe the DoD needs arising from
    all hurricanes in the 2005 hurricane season.

    This audit was performed in support of Public Law 109-62, “Second Emergency
    Supplemental Appropriations Act to Meet Immediate Needs Arising from the
    Consequences of Hurricane Katrina, 2005,” September 8, 2005. The law requires
    the Inspector General, Department of Homeland Security, to audit and investigate
    funds expended on Hurricane Katrina response and recovery activities. In a letter
    to the Secretary of Homeland Security on September 15, 2005, the House
    Government Reform Committee and its Subcommittee on Financial Management
    (now the Subcommittee on Government Management, Organization, and
    Procurement) tasked the Secretary to coordinate with the DoD Inspector General
    (DoD IG) to increase its auditing and investigative capabilities to ensure that the
    funds were used for their intended purposes. We issued our report on that audit
    on September 27, 2006. We expanded the scope of our audit to include all four of
    the emergency supplemental appropriations for DoD needs arising from
    Hurricane Katrina. This report is one in a series discussing the use of DoD
    resources to support the Hurricane Katrina relief efforts.

    Public Law 109-61. “Emergency Supplemental Appropriations Act to Meet
    Immediate Needs Arising From the Consequences of Hurricane Katrina, 2005,”
    September 2, 2005, provided $500 million for Operation and Maintenance
    (O&M) Defense-wide for DoD emergency hurricane expenses to support costs of
    evacuation, emergency repairs, personnel deployment, and other costs resulting
    from immediate relief efforts.

    Public Law 109-62. “Second Emergency Supplemental Appropriations Act to
    Meet Immediate Needs Arising From the Consequences of Hurricane Katrina,
    2005,” September 8, 2005, provided $1.4 billion for O&M Defense-wide for DoD
    emergency hurricane expenses to support costs of evacuation, emergency repairs,
    personnel deployment, and other costs resulting from immediate relief efforts.

    Public Law 109-148. “Department of Defense, Emergency Supplemental
    Appropriations to Address Hurricanes in the Gulf of Mexico and Pandemic
    Influenza Act, 2006,” December 30, 2005, included over $24.7 million O&M
    Defense-wide to remain available until September 30, 2006, for necessary
    expenses related to the consequences of hurricanes in the Gulf of Mexico in the


                                         1

    calendar year 2005. About $173 million additional O&M funding was provided
    to the Defense Health Program (DHP), over $6.1 million for the Defense Working
    Capital Funds, and over $37.7 million for the Defense Commissary Agency
    (DeCA) Surcharge Collections fund. Other DoD Components received additional
    funding under this public law.

    Public Law 109-234. “Emergency Supplemental Appropriations Act for Defense,
    the Global War on Terror, and Hurricane Recovery, 2006,” June 15, 2006,
    included about $33.9 million for DHP, over $1.2 million for the Defense Working
    Capital Funds, and over $10.5 million for DeCA Surcharge Collections fund
    Additional funding was provided to other DoD Components under this law.


Objectives
    Our overall audit objective was to determine if the emergency supplemental
    appropriations for DoD needs arising from Hurricane Katrina were used for their
    intended purposes. See Appendix A for a discussion of the scope and
    methodology of our review, and for prior coverage related to the objectives.




                                       2

Compliance With the Emergency
Supplemental Appropriations for DoD
Needs Arising From Hurricane Katrina
Generally, the DoD Components we visited used the emergency
supplemental appropriations for their needs arising from Hurricane
Katrina. However, some of the Components did not manage the
emergency supplemental appropriations efficiently. The appropriations
were mismanaged because the Components:

       •	 could not estimate their Hurricane Katrina needs before the
          authority to obligate the first emergency supplemental
          appropriation was to expire and therefore obligated more funds
          than they needed,

       •	 used the emergency supplemental appropriations for
          non-Hurricane Katrina needs, and

       •	 used the emergency supplemental appropriations for
          reimbursable expenses and did not bill for reimbursements.

In addition to mismanaging the appropriations, some Components:

       •	 used their regular appropriations in addition to their emergency
          supplemental appropriations for their Hurricane Katrina needs,
          or

       •	 did not establish unique accounting codes to record and track
          expenditures for their Hurricane Katrina needs.

As a result, some Components inefficiently used or allowed about
$26.8 million emergency supplemental appropriated funds, that could
have been used by other Components for their Hurricane Katrina needs, to
expire. Furthermore, one Component used $219,347 of the emergency
supplemental appropriation for its needs that did not result from Hurricane
Katrina, and three Components used about $935,680 of the emergency
supplemental appropriations to pay for expenses that were reimbursable
by the Federal Emergency Management Agency (FEMA) but did not seek
reimbursement from FEMA. In addition, other Components used about
$2.1 million of their regular appropriations for their Hurricane Katrina
needs. At some of the Components, we could not determine if the funds
were expended on their Hurricane Katrina needs because they did not use
unique accounting codes to collect and record their Hurricane Katrina
transactions.




                             3

Criteria 

           DoD Policies. DoD Financial Management Regulation (FMR) provides guidance
           on the administrative control of DoD funds. The Under Secretary of Defense
           (Comptroller) (USD[C]) issued additional guidance to DoD Components for the
           recording and reporting DoD assistance to support the Hurricane Katrina relief
           efforts.

                   FMR. The FMR provides guidance for the use of appropriated funds.
           FMR volume 14, chapter 1, “Administrative Control of Appropriations,”
           October 2002, establishes policy and procedures for the administrative control of
           funds. The policy requires DoD Components to “restrict the use of limitations on
           available funds to those necessary to comply with statutory provisions, such as
           those imposed by the appropriate DoD authorization or DoD Appropriations Act,
           or to address specific management requirements.” The policy also requires DoD
           Components and officials to obligate and expend funds for the purposes
           authorized by the type of fund or account. FMR volume 14, chapter 2,
           “Violations of the Antideficiency Act,” August 2006, states that a violation of the
           Antideficiency Act may occur if “regulatory limitation on the purpose for which
           an appropriation or fund may be used are violated, when specifically carrying an
           antideficiency limitation and corrective funding is not available.”

                    DoD Reimbursement Guidance. The USD(C) memorandum
           “Reimbursement Guidance for Hurricane Katrina Relief Efforts,” September 20,
           2005, provided guidance to DoD Components performing missions FEMA
           requested to “ensure an accurate accounting of costs incurred is maintained and
           timely reimbursement is requested from FEMA.” The memorandum also stated
           that, as a rule, any cost incurred above normal DoD mission is reimbursable by
           FEMA under the Stafford Act. Partial or final requests for reimbursement were to
           be submitted to FEMA no later than 90 days after the completion or termination
           of an assignment. On September 23, 2005, the USD(C) issued another
           memorandum, “Reporting of Hurricane Katrina Relief Costs,” which provided
           guidance to DoD Components on collecting and reporting costs associated with
           the DoD Hurricane Katrina disaster relief efforts. The memorandum also stated
           that DoD FEMA reimbursable costs include security operations; personnel search,
           rescue, and recovery operations; personnel evacuation; medical support;
           transportation of personnel; supplies and equipment; restoration of basic utilities;
           and the provision and distribution of basic sustainment items.

           Joint Travel Regulation. The Joint Travel Regulation provides guidance for
           DoD Military and civilian employees. According to the Joint Travel Regulation
           volume II, chapter 4, part L, section C4567, “Per Diem for Employees and/or
           Dependents while at Safe Haven Incident to an Evacuation From a PDS 1 Within
           CONUS 2 or non-Foreign OCONUS 3 Location,” September 22, 2005, evacuated
           employees and dependents are authorized a per diem allowance under the
1
    Permanent Duty Station.
2
    Continental United States.
3
    Outside the Continental United States.



                                                4

Lodgings-Plus per diem computation method for each day they are in an
evacuation status. Beginning on the 31st day, per diem is computed at 60 percent
(for employee and dependents 12 or older) and 30 percent (for dependents
under 12) of the applicable per diem rate.




                                    5

Example of DoD Hurricane Katrina Needs
    DoD facilities were severely damaged by Hurricane Katrina. The Air Force took
    the following pictures of Keesler Air Force Base shortly after the hurricane.




                             Rear of Dolan Hall




                           Front of the Commissary Store


                                      6

Restroom between 12th and 13th holes at the Golf Course




          View of D Street Near Central Steam Plant


                          7

Allocation of the Emergency Supplemental Appropriations
    USD(C) allocated the emergency supplemental appropriations to DoD
    Components that included O&M; Working Capital Funds; Procurement; and
    Research, Development, Test, and Evaluation. We only reviewed O&M funds
    and Working Capital funds that had been obligated at the time of our site visits.
    We did not review allocations for Procurement and for Research, Development,
    Test, and Evaluation because the availability for incurring new obligations with
    the funds had not expired at the time of our visits. See Appendix A for a
    discussion of the scope and methodology of our review and Appendix B for the
    total DoD emergency supplemental appropriations by public law. Table 1 shows
    O&M and Working Capital funds that the USD(C) initially allocated from the
    emergency supplemental appropriations to the Components we visited.

                                      Table 1 

                      Emergency Supplemental Appropriation to

                       DoD Components Obligation Authority

                                   (in millions) 

                                                                                 Working
     Component                                      O&M Funds                     Capital
     Defense Health Program*                                $227.4                       0.0
     Department of Defense Education                           68.0                      0.0
     Activity
     Defense Commissary Agency                                  0.0                   $52.7
     Defense Logistics Agency                                   5.3                    20.7
     United States Special Operations                           7.5                      0.0
     Command
     Defense Contract Management Agency                         5.3                      0.0
     Total                                                  $313.5                    $73.4
     *
      The Defense Health Program received and allocated the funds to other Components based
     on its own allocation formula. The Defense Health Program received an additional $28.6
     million in Procurement Funds.



    The first emergency supplemental appropriation was enacted on September 2,
    2005, about 4 days after Hurricane Katrina made landfall on August 29, 2005.
    Some of the Components did not receive their funding authority until
    September 23, 2005, and immediately obligated the total funding before the
    authority to obligate the funds expired on September 30, 2005.




                                             8

Estimating Hurricane Katrina Needs
    The DoD Components estimated their Hurricane Katrina needs under difficult
    conditions caused by the hurricane and in a short time frame before the authority
    to obligate the first emergency supplemental appropriation would have expired.
    Therefore, USD(C) allocated the emergency supplemental appropriations to some
    Components in amounts that exceeded their needs. These DoD Components did
    not manage their emergency supplemental appropriations efficiently.
    Specifically, DeCA, the Defense Contract Management Agency (DCMA), and
    three Components that received funding through the Department of Defense
    Education Activity (DoDEA) did not manage a total of over $26.8 million of
    emergency supplemental appropriations efficiently. In an e-mail message on
    September 26, 2005, the USD(C) requested DoD Components to inform the office
    of all emergency supplemental funds that were in excess of their FY 2005
    requirements. Some Components did return the excess funding to the USD(C)
    before the authority to obligate the funds expired. Other Components kept the
    excess funds and used it for other purposes or allowed the availability of the funds
    for new obligations to expire. We considered the emergency supplemental
    funding that was used for other than Hurricane Katrina needs or were over-
    obligated and allowed to expire to have been mismanaged. Table 2 shows the
    Components that obligated funds in excess of their needs and allowed the funds to
    expire or received excess funding and did not return the funds to the USD(C) as
    directed.

                                      Table 2 

              Funding Obligated in Excess of Needs or Allowed to Expire 

                        by Components Visited (in millions)
                                                              Total                 Funds Not
     Component                                               Funds                   Managed
                                                          Obligated                 Efficiently
     DeCA                                                      $52.71                        0.0
                                                                      2
     DCMA                                                         2.8                      $ 1.0
                                             3
     Army Air Force Exchange Service                              22.8                       2.7
                                3
     Navy Exchange Service                                        12.8                       6.1
     Army Acquisition, Logistics, and                             23.4                      17.0
     Technology; Simulation, Training, and
     Instrumentation; Program Executive
     Office3
     Total                                                     $114.5                     $26.8
     1
      DeCA obligated $1.5 million for non-accountable property lost. We consider this obligation
       to be overstated, but we cannot quantify the dollar amount.
     2
      DCMA obligated $1.2 million in FY 2005 and $1.6 million in FY 2006.
     3
      Received funding through DoDEA.




                                                 9

•	 DeCA received over $52.7 million for damages at eight commissary
   stores caused by Hurricane Katrina. At the time of our site visit,
   DeCA had reserved about $37.7 million of the $52.7 million for
   rebuilding commissary stores that were damaged by Hurricane
   Katrina. DeCA obligated the remaining $15 million for the DeCA
   Resale, Surcharge, and Working Capital funds. For example, DeCA
   obligated over $2.9 million for estimated inventory losses at the eight
   commissary stores. DeCA based the estimate on average book
   inventory of the three months preceding the hurricane. We found the
   estimate to be reasonable. DeCA also obligated about $3.3 million for
   estimated accountable property losses at three of the eight commissary
   stores and about $1.5 million for non-accountable properties at two of
   the eight commissary stores. DeCA personnel told us that there was
   no requirement for them to maintain property records for the
   non-accountable property. DeCA headquarters personnel calculated
   the non-accountable property loss at 35 percent of the accountable
   property lost. DeCA officials told us in an e-mail message that a quick
   review of non-accountable equipment bought for new commissary
   stores showed that DeCA spent an average of one-third of what was
   spent for accountable equipment on non-accountable equipment.
   However, DeCA could not provide us with any evidence to support the
   claim. Based on the DeCA property books, we found the estimate for
   the accountable property to be reasonable. Although we cannot
   quantify the amount, we found the estimate for the non-accountable
   property to be unreasonable.

•	 In FY 2005, DCMA obligated about $1.2 million of the almost
   $2 million supplemental appropriations it received for allowable
   expenses. Of the $2 million, $771,000 was not obligated and was in
   excess of DCMA needs. DCMA did not inform the USD(C) of the
   excess funds until August 2, 2006, after our audit inquiries. USD(C)
   could not reallocate the funds to other Components because by
   August 2, 2006, the authority to obligate the funds had expired.
   Because DCMA did not notify USD(C) of the excess funds in a timely
   manner, DCMA did not manage the $771,000 efficiently.

•	 In FY 2005, DCMA used $831,651 of the $1.2 million in emergency
   supplemental appropriations it obligated to replace lost income from a
   reimbursable contract with the National Aeronautics and Space
   Administration (NASA) that DCMA could not perform because of
   Hurricane Katrina. In addition, DCMA received and obligated over
   $1.6 million in emergency supplemental appropriations in FY 2006
   and used over $1.3 million of this amount as lost reimbursable
   earnings from the NASA contract. DCMA officials told us that the
   lost income represented DCMA reimbursable earnings for direct labor
   and support costs for employees who could not perform the NASA
   contract. According to the officials, the salaries of these employees
   were funded with earnings from the contract. According to DCMA
   e-mails, of the 70 DCMA employees displaced by the NASA contract,
   66 employees had returned to work as of November 28, 2005, and the
   remaining 4 employees were supporting other DCMA field offices.


                            10 

   However, in calculating the lost income, DCMA did not make any
   adjustments for the 4 employees that were not returning to work on the
   NASA contract. Using the DCMA generated actual hours lost from
   the contract, we computed that DCMA overstated its lost income for
   FY 2006 by $254,697. Therefore, DCMA did not manage the
   emergency supplemental funding efficiently.

•	 The Army Air Force Exchange Service (AAFES) received about
   $22.8 million of the $68 million that the Under Secretary of Defense
   (Personnel and Readiness) (USD[P&R]) Quality of Life Office
   allocated through the DoDEA to provide Hurricane Katrina emergency
   intervention funding for Tactical Field Exchange and comfort packs to
   DoD Military personnel and dependents displaced by the hurricane.
   AAFES obligated the whole $22.8 million before the funds expired but
   expended only $9.9 million to acquire the Tactical Field Exchange and
   comfort packs. Of the $9.9 million expended, 15,670 comfort packs
   valued at over $2.7 million were in excess of AAFES needs. AAFES
   personnel told us that they were told to purchase the items and did not
   know how much was actually needed. AAFES personnel told us that
   AAFES did not return the excess comfort packs to the vendors;
   instead, at the request of the USD(P&R) Quality of Life Office,
   AAFES shipped the excess comfort packs to Military installations not
   affected by Hurricane Katrina including those in Kentucky, Missouri,
   Oklahoma, and Germany. With the purchase of $2.7 million in excess
   comfort packs, AAFES did not manage the emergency supplemental
   funding efficiently.

•	 On September 23, 2005, the Navy Exchange Service Command
   received about $12.8 million of the $68 million that the USD(P&R)
   Quality of Life Office allocated through DoDEA to provide Tactical
   Field Exchange and comfort packs to DoD Military personnel and
   dependents affected by Hurricane Katrina. The Navy Exchange
   Service Command obligated the $12.8 million before the funds
   expired but only expended about $6.7 million for the requested items.
   On October 4, 2006, a Navy Exchange Service Command official told
   us in an e-mail that they will use a portion of the remaining
   $6.1 million to pay travel claims and return the balance to the USD(C)
   by October 20, 2007. According to the official, the travel claims are
   expected to be minimal. The funds were O&M funds that expired on
   September 30, 2005, and could not be used for new obligations,
   including in October 2007. The Navy Exchange Service Command
   received funding in excess of their needs and did not efficiently
   manage the emergency supplemental appropriations it received.

•	 On September 23, 2005, the Assistant Secretary of the Army for
   Acquisition, Logistics, and Technology; Simulation, Training, and
   Instrumentation; Program Executive Office, Orlando, Florida, (the
   Program Executive Office) received about $23.4 million of the
   $68 million that the USD(P&R) Quality of Life Office allocated
   through DoDEA to acquire counseling support for members of the
   Military and their dependents affected by Hurricane Katrina. The


                            11

                         Program Executive Office immediately obligated the entire amount
                         and, on September 26, 2005, amended an existing contract and
                         awarded the $23.4 million to the contractor for the requested services. 4
                         Program Executive Office personnel told us that they received the
                         funding and had to obligate it before the availability of funds for new
                         obligations expired on September 30, 2005. According to the Program
                         Executive Office, “the use of the funds for the purposes intended fell
                         well short of expectations” by approximately $17 million. The
                         Program Executive Office indicated they could have used the funds in
                         FY 2006 if the “funds had been turned back to USD(C) in FY 2005
                         and then reissued in FY 2006.” However, the authority to obligate the
                         funds expired on September 30, 2005. The Program Office Executive
                         did not efficiently manage the $17 million emergency supplemental
                         appropriations that were allowed to expire.

            Under Public Law 109-61, the Secretary of Defense had authority to transfer the
            funds from the O&M account to other accounts and the USD(C) could reallocate
            the funds from one DoD Component to another. We believed that had these
            Components managed their funds efficiently and had returned the excess funds,
            the USD(C) could have allocated the funds to those Components that did not
            receive enough funding to meet their needs.


Emergency Supplemental Appropriations Used for
  Non-Hurricane Katrina Needs
            One Component used the emergency supplemental appropriation for its needs that
            did not result from Hurricane Katrina. Specifically, DCMA used $219,347 to
            purchase 70 desktop computers, 27 laptop computers, 17 BlackBerries, and other
            computer-related equipment. DCMA did not record the new equipment in its
            equipment database, the Defense Property Accountability System, as required by
            DCMA internal policies. We asked DCMA for a listing of computer equipment
            that was destroyed or damaged because of Hurricane Katrina or any other
            hurricane and DCMA was not able to provide us with a listing. DCMA officials
            told us that to the best of their knowledge they lost one computer and one router.
            DCMA could not provide us with the support for these losses. However, in an
            internal e-mail message on January 12, 2006, a DCMA official stated that DCMA
            obtained the laptop computers and the BlackBerries to help DCMA offices
            recover from the devastation of Hurricanes Katrina and Rita. The e-mail also
            stated that “all our old BlackBerries are out of warranty so we want to replace
            BlackBerries already deployed with the new ones.” Regarding the 27 laptops, the
            official stated in the e-mail that “the purchase will give us the opportunity to
            repair and replace needed ADP [Automated Data Processing] capacity.” On
            September 8, 2005, prior to the purchase of the computers and the BlackBerries,
            another DCMA official had questioned the planned purchase and stated in an
            e-mail message on “Releasing Funds for Hurricane Katrina” to the requesting
4
    A Defense Hotline investigation on the award of the contract was in progress at the time of our audit site
    visit. We did not review the award of the contract or attempt to validate the allegation.




                                                        12 

           official that she would “wait and get a better feel on whether our equipment was
           really destroyed.”

           Congress appropriated the emergency supplemental funding for DoD needs
           arising from Hurricane Katrina. According to the DoD FMR, an Antideficiency
           Act violation may occur if regulatory limitations on the purpose for which an
           appropriation or fund may be used are violated. We believe that Congress did not
           intend DoD Components to use the emergency supplemental appropriations to
           replace their computers and other equipment that were not destroyed by
           Hurricane Katrina. Because DCMA used the emergency supplemental
           appropriation to acquire new computer and computer-related equipment and not
           to replace lost or damaged computers related to Hurricane Katrina, the emergency
           supplemental appropriations were not used for their intended purposes.
           According to the DoD FMR, if a Component used appropriated funds for other
           than their intended purposes and does not have current year funds to replace the
           used appropriated funds, the Component may have an Antideficiency Act
           violation. Therefore, the DCMA use of the emergency supplemental
           appropriations to acquire new computers without support that the computers were
           destroyed by Hurricane Katrina is a potential violation of the Antideficiency Act.


Emergency Supplemental Appropriations Used For FEMA
  Mission Assignments
           After Hurricane Katrina had made landfall on the U.S. Gulf Coast, FEMA gave
           reimbursable funding authority to DoD to perform specific mission assignments 5
           to provide relief and other humanitarian assistance to the victims of the hurricane.
           DoD guidance states that as a general rule, any cost incurred above normal DoD
           mission in the relief efforts is reimbursable by FEMA under the Stafford Act.
           Three Components we visited used in total about $935,680 of the emergency
           supplemental appropriations to pay for expenses related to the FEMA request, but
           the Components did not seek reimbursement from FEMA. Table 3 shows the
           amounts that the Components should have billed FEMA for reimbursement.




5
    Mission assignment is a funding document that FEMA provided to DoD that described a particular
    assistance or tasking that FEMA requested DoD to perform.




                                                    13

                                              Table 3 

                    Emergency Supplemental Appropriations Used for FEMA Mission

                                 Assignments by Component Visited

                  Component                                                                 Amount

                  Defense Logistics Agency                                                 $171,500

                  The National Naval Medical Center-Bethesda                                  56,280

                  U.S. Army Center for Health Promotion and                                 707,900
                  Preventive Medicine

                  Total                                                                    $935,680



               •	 The Operations and Readiness office of the Defense Logistics Agency
                  (DLA) used $119,628 of its emergency supplemental appropriations to
                  pay for expenses that should have been charged to a FEMA mission
                  assignment. The expenses included travel cost for employees who
                  assisted Hurricane Katrina victims and the labor cost for an employee who
                  was detailed to work for FEMA during the hurricane recovery efforts.
                  Also, the Defense Energy Support Center (DESC), a field activity of
                  DLA, spent $51,872 of the DoD emergency supplemental appropriation to
                  acquire telephones, labor, and travel expenses for employees who were
                  sent to help the DoD hurricane relief efforts rather than charge the cost to
                  a FEMA mission assignment. According to a DESC official, the
                  employees traveled to the hurricane area to “inspect fuel and act as liaison
                  for Federal, Military, and local authorities for fuel distribution.” The U.S.
                  Northern Command gave DLA a FEMA mission assignment
                  (1604DR-MS-DoD-19) to provide planning and execution for the
                  procurement, transportation, and distribution of ice, water, food, fuel, and
                  medical supplies in support of the Hurricane Katrina relief efforts. On
                  September 27, 2006, we reported that the DESC obligated about
                  $4.8 million against this mission assignment. 6 DLA should also have
                  charged the $119,628 and the $51,872, for a total of $171,500, to this
                  FEMA mission assignment.

               •	 The National Naval Medical Center, Bethesda, Maryland, obligated
                  $56,280 of emergency supplemental funds for transportation cost for
                  personnel that assisted Hurricane Katrina victims on the USNS Comfort, a
                  hospital ship. On August 31, 2005, FEMA gave DoD an initial mission
                  assignment valued at $5 million requesting DoD to “supply hospital ship
                  and first responders supporting the recovery efforts due to the devastation
                  of Hurricane Katrina.” The mission assignment (1603DR-LA-DoD 07)
                  was amended to include a FEMA requirement for patient beds on the
                  USNS Comfort and for first responders support. The National Naval
6
    DoD IG Report No. D2006-118, “Financial Management of Hurricane Katrina Relief Efforts at Selected
    DoD Components,” September 27, 2006.



                                                    14 

           Medical Center should have charged the transportation cost of $56,280 to
           the FEMA mission assignment.

       •	 The U.S. Army Center for Health Promotion and Preventive Medicine (the
          Center) at Aberdeen, Maryland, spent $707,900 emergency supplemental
          funds on supplies, travel, overtime pay, and benefits to assist the DoD
          Hurricane Katrina relief efforts. The amount was part of the DHP
          allocation of funds. The tasking to the Center clearly stated that it was
          related to Hurricane Katrina disaster relief. Personnel who traveled
          provided “continued support to Joint Task Force Katrina.” Joint Task
          Force Katrina was set up as a DoD organization under the U.S. Northern
          Command to lead the DoD Hurricane Katrina relief efforts. According to
          the USD(C) memorandum of September 23, 2005, the Center should have
          charged the $707,900 to a FEMA mission assignment.

    The purpose of the mission assignments was to ensure that FEMA funds, and not
    DoD funds, were expended on FEMA-directed DoD assistance and support for
    the hurricane relief efforts. DoD should request reimbursement from FEMA for
    the funds expended on FEMA directed mission assignments.


Use of Components Own Funds for Hurricane Needs
    Some of the Components we visited used about $2.1 million of their regular funds
    in addition to their emergency supplemental appropriations for their Hurricane
    Katrina needs. Table 4 shows the Components that used other funds to augment
    the emergency supplemental funding for their Hurricane Katrina needs. We do
    not have evidence that these Components requested and were denied additional
    funding by USD(C). However, had the other Components returned their excess
    funding, the USD(C) could have reallocated the funds and these Components
    would not have had to use their regular appropriations to augment their
    emergency supplemental appropriations for their hurricane needs.




                                       15

                                     Table 4 

         Funds Other Than Emergency Supplemental Appropriations Used for

                  Hurricane Katrina Needs by Components Visited 

                                      Total Amount        Emergency
                                      Obligated for       Supplemental           Own
                                      Hurricane           Appropriations         Funds
     Component                        Katrina Needs       Used                   Used
     Air Force Medical Operations
     Agency, Brooks City Base          $15,188,437           $13,435,937        $1,752,500
     U.S. Army Center for Health
     Promotion and Preventive
     Medicine                              842,664                707,900          134,764
     Naval Hospital, Pensacola             581,962                470,000          111,962
     Naval Medical Center,                 302,628                250,000           52,628
     Bethesda
     Walter Reed Medical Center              41,132                20,500           20,632
     Navy Medicine Support
     Command, Jacksonville               2,092,226              2,080,000           12,226
     Total                             $19,049,049           $16,964,337        $2,084,712


Unique Accounting Codes
    Some of the Components used unique accounting codes to track and record
    transactions for their Hurricane Katrina needs. These unique accounting codes
    provided an audit trail and were very helpful in our review. However, not all the
    Components we visited established or used unique accounting codes to identify
    their Hurricane Katrina relief transactions. Specifically, one site we visited used a
    unique accounting code to track and record its Hurricane Katrina transactions.
    Two sites we visited did not use or could not support unique accounting codes
    and, therefore, these sites did not have audit trails for us to determine if the
    emergency supplemental appropriations were used for their intended purposes.
    For example,

       •	 The Program Executive Office used a unique accounting code. With this
          code, we were able to identify about $1.8 million of non-Hurricane
          Katrina related expenses that were paid with emergency supplemental
          funding and over $1.1 million of Hurricane Katrina expenses that were
          paid with funds other than non-emergency supplemental funding. We
          informed the Program Executive Office of these errors, and we were
          satisfied with their proposed actions to correct the errors.

       •	 In a memorandum to the USD(C), “Internal Controls for Hurricane
          Procurement and Spending,” September 28, 2005, DeCA stated that it was
          tracking all financial transactions related to Hurricane Katrina by
          establishing a unique accounting document number. However, DeCA


                                         16 

            officials told us that DeCA did not set up a unique code to record and
            track its Hurricane Katrina-related transactions. As a result, we do not
            have reasonable assurance that the universe of transactions DeCA
            provided to us included all Hurricane Katrina-related expenses.

        •	 Officials of Tricare Management Activity (TMA)-West told us they used a
           suballotment code to track and account for Hurricane Katrina funding
           disbursements. However, TMA-West could not provide us with any
           documentation to support the amounts in the suballoment code. A
           TMA-West official told us that TMA-West did not have procedures in
           place to track Military personnel and their family members who relocated
           because of Hurricane Katrina. As a result, we were unable to determine
           how much of the $33.8 million emergency supplemental appropriations
           that TMA-West received were used for the intended purposes.


Other Matters of Interest
     DCMA Travel and Other Payments. We found errors with the payment of
     travel vouchers and expenses related to evacuated DCMA employees. For
     example, the Defense Finance and Accounting Service (DFAS) paid an evacuated
     employee $500 for a hotel stay that had been handwritten on a receipt similar to
     those sold at regular supply stores. The name and location of the hotel were not
     identified on the receipt. DFAS paid another evacuated employee $1,433 for
     2,955 “in and around” miles when the employee was not approved to receive
     payment for the miles. Also, according to the Joint Travel Regulation policies,
     employees and their dependents evacuated to a safe haven location as the result of
     Hurricane Katrina were entitled to 60 percent of the per diem rate for the location
     starting on the 31st day of stay at a temporary location. We found one instance
     where DFAS paid an employee and one dependent 80 percent rather than the
     approved 60 percent rate for 33 days, an overpayment of $508. Based on our
     audit, DFAS agreed to perform 100 percent review of all travel vouchers and
     Hurricane Katrina entitlement payments to DCMA employees. In addition,
     because of our audit, DFAS sent debt collection letters to the employees we
     identified as overpaid.

     DFAS provided us with the results of their review on February 26, 2007. The
     DFAS review concluded that 213 of 267 vouchers reviewed contained errors
     totaling $29,743 underpayments and $57,860 overpayments to DCMA
     employees. We reviewed 13 of the 267 vouchers that DFAS had reviewed and
     found errors in 10 of the 13 sample vouchers. Because of this high error rate, we
     stopped our review of the results of the DFAS audit. We communicated the
     results of our review to DCMA and to DFAS. The errors included a total
     underpayment of $220 and a total overpayment of $6,422. The amount of the
     errors on the individual vouchers may not be material; however, the cumulative
     effect of the amounts and the error rate of the vouchers reviewed and paid by
     DFAS indicate a systemic problem and is therefore of a material concern to us.
     For example, one employee was paid $1,500 lodging expenses per month for four
     months on a handwritten receipt provided by the employee for 3 of 4 months and



                                         17

    no receipt for the fourth month. DFAS recalculated this voucher and sent a debt
    collection letter to the employee on March 6, 2007.

    Tracking Funds Allocation. DHP could not provide us with accurate data on the
    funding that DHP allocated to other Components, which adversely affected the
    time we spent on the audit. We used funds allocation spreadsheets provided by
    DHP to select the sites to visit. The spreadsheets did not include accurate
    information, and therefore, affected which sites we selected to visit. For example,
    the DHP spreadsheet indicated that the Naval Hospital, Jacksonville, Florida,
    received $111,000 emergency supplemental appropriation. Officials at this
    location told us that they did not receive any emergency supplemental
    appropriation. We believe the information from the Naval Hospital, Jacksonville
    to be accurate. In addition, the spreadsheet indicated that DHP allocated about
    $126.3 million to TMA-West. However, our review of funding documents at
    TMA-West indicated that the funding was about $33.8 million. For most of the
    DHP sites, the amounts on the spreadsheet varied significantly from the actual
    amounts the Components received. We relied on the supporting documentation
    provided to us by the Components to determine the funding that the Components
    received.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller):

           a. Develop a formal process for DoD Components to identify their
    needs in emergency situations, review their needs and funding requirements,
    request additional funding when necessary, and return funding in excess of
    their needs to the Comptroller.

    Management Comments. The Acting Deputy Chief Financial Officer partially
    concurred with the recommendation and stated that the Office of the Under
    Secretary of Defense (Comptroller) (Program/Budget) will update the DoD
    Financial Management Regulation to address issues related to domestic
    contingencies no later than November 2007. In addition, the Acting Deputy Chief
    Financial Officer stated that the Office of the Under Secretary of Defense
    (Comptroller) will address Component responsibilities for managing
    supplemental appropriations for disaster operations in a memorandum to be
    issued in August 2007.

    Audit Response. Although the Acting Deputy Chief Financial Officer partially
    concurred with the recommendation, we consider the comments responsive and
    no additional comments are required.

           b. Perform an independent assessment and determine whether a
    formal investigation should occur for potential Antideficiency Act violations
    of the Defense Contract Management Agency use of emergency supplemental
    appropriations to purchase computer equipment.



                                        18 

Management Comments. The Acting Deputy Chief Financial Officer partially
concurred with the recommendation and stated that under the DoD Financial
management regulations the Under Secretary of Defense (Comptroller) does not
perform an assessment to determine if a potential Antidefiency Act violation has
occurred. Rather, the Under Secretary of Defense (Comptroller) may request the
affected Component to perform a preliminary review and provide the results of
the review to his office. The Acting Deputy Chief Financial Officer also stated
that, in this instance, the Defense Contract Management Agency has voluntarily
performed a preliminary review that revealed a violation of the Antideficiency
Act had occurred and that the Defense Contract Management Agency has
corrected the violation.

Audit Response. Although the Acting Deputy Chief Financial Officer partially
concurred with the recommendation, we consider the comments responsive and
no additional comments are required. However, we suggest that the Under
Secretary of Defense (Comptroller) ensure that the Defense Contract Management
Agency report the Antideficiency Act violation in accordance with the DoD
Financial Management Regulation.

       c. Require the Director, Defense Logistics Agency, and the Director,
Defense Health Programs to work with the Defense Finance and Accounting
Service and the U.S. Northern Command to seek reimbursement from the
Federal Emergency Management Agency for funds expended on the Federal
Emergency Management Agency mission assignments.

Management Comments. The Acting Deputy Chief Financial Officer concurred
with the recommendation and stated that the Defense Logistics Agency and the
Defense Health Program are both working with the Defense Finance and
Accounting Service and the United States Northern Command to verify the costs
and bill the Federal Management Emergency Agency for reimbursement. He also
stated that his office will monitor the progress until the Federal Emergency
Management Agency mission assignments are closed.

Audit Response. The Acting Deputy Chief Financial Officer comments are
responsive and no additional comments are required. We have assisted the U.S.
Northern Command to identify the Federal Emergency Management Agency
mission assignments that the Defense Logistics Agency and the Defense Health
Programs should have used in the billings.

       d. Require DoD Components to develop unique accounting codes to
track and record the use of appropriated funds for their needs arising from
disasters and civil emergencies.

Management Comments. The Acting Deputy Chief Financial Officer partially
concurred with the recommendation and stated that the Under Secretary of
Defense (Comptroller) agrees that all disasters or civil emergency costs recorded
in accounting systems should be coded. The Acting Deputy Chief Financial
Officer also stated that the requirement was reinforced in an Under Secretary of
Defense (Comptroller) memorandum on “Financial Management Preparation for
2006 Hurricane Season” and the requirement will be included in the 2007 edition



                                    19

of an annual memorandum to be issued in August 2007 and in the U.S. Northern
Command FY 2007 Hurricane Execute Order.

Audit Response. The Acting Chief Financial Officer partially concurred with the
recommendations. The comments are responsive and no additional comments are
required.

       2. We recommend that the Director, Defense Finance and Accounting
Service, perform an audit of travel and relocation vouchers paid with the
emergency supplemental appropriations to Defense Contract Management
Agency employees and take corrective actions based on the results of the
audit.

Management Comments. The Deputy Director, DFAS Columbus nonconcurred
with the recommendations and stated that the DFAS Columbus has taken the
specific steps and corrective actions to address the deficiencies identified in the
report. The Deputy Director also stated that the DFAS Columbus Travel Office
has completed a review to determine the possibility or extent of systemic
problems involved in the high error rate identified in the audit report; its review
identified four issues that led to the high error rate. In addition, the Deputy
Director stated that DoD IG auditors initiated a review of 267 audited vouchers
that the DFAS Columbus Travel Office had reviewed. Because the DoD IG
found 11 errors in 13 of the audited vouchers, the DoD IG auditors terminated
their review. The Deputy Director also stated that only 5 of the 13 vouchers were
in error and the total amount of 3 of the errors was less than $33. The DFAS
Columbus Travel Office has completed corrective actions to ensure adequate
internal controls are in place and to address deficiencies identified in the audit. It
has shared the results of the corrective actions and lessons learned for processing
emergency evacuation vouchers with the DFAS Indianapolis Travel Office.
Finally, the Deputy Director stated that conducting another 100 percent audit of
DCMA Hurricane Katrina evacuation vouchers would not be cost effective and
place additional burden on DoD employees affected by Hurricane Katrina.

Audit Response. Although DFAS did not concur with the recommendations,
DFAS comments partially met the intent of the recommendation. We
communicated the results of our initial review of the paid vouchers to DFAS, and
DFAS reviewed the vouchers and provided us with their results. From their
results, we found errors in 10 of the first 13 vouchers we selected for review. We
therefore terminated our second review and communicated our results again to
DFAS. The comments of the Deputy Director, DFAS Columbus indicate that
DFAS is more concerned about the dollar amount of an error on a paid voucher
rather than the frequency that the errors occurred on the paid vouchers.
Regardless of the amount paid because of errors as indicated in the comments,
there is an indication of an inherent systemic problem in the processing and
payment of vouchers at the DFAS Columbus Travel Office. The four issues that
the Deputy Director identified in his comments as leading to the errors are all
related to human factors. However, none of the additional corrective actions that
the DFAS Columbus Travel Office has taken, as stated in the comments,
addressed the four identified issues. Also, we disagree that identifying and
correcting the errors would not be cost effective and would place additional
burden on DoD employees affected by Hurricane Katrina. We request that DFAS


                                      20 

reconsider its position on the recommendation and provide comments on the final
report.

Unsolicited Comments. Although management comments were not required, the
Director, DeCA provided comments to the report. DeCA stated that management
does not agree with the footnote in Table 2 that we considered the $1.5 million
DeCA has obligated for non-accountable property as overstated. The Director,
DeCA stated that DeCA provided the DoD IG auditors with a non-accountable
equipment purchase history of 35 percent of the total equipment purchases for the
hurricane-damaged stores. He stated that DeCA does not maintain property
records for non-accountable property because there is no regulatory requirement
to maintain the property records. He also stated that in FY 2005, DeCA spent
$24,500,000 on equipment of which $14,260,744 was for accountable and
$10,239,226 (41 percent) was for nonaccountable property. In addition, the
Director stated that in FY 2006, DeCA spent $26,300,000 on equipment of which
$8,201,099 was for accountable property and $18,098,901 (61 percent) was for
non-accountable property. He provided similar estimates for FY 2007 purchases
in his comments.

Audit Response. The Director, DeCA comments are incorrect and inconsistent
with information provided to us. We made several inquires during and after our
site visit to DeCA headquarters and also gave DeCA several opportunities by
e-mail messages to provide us with the support for the 35 percent of value of the
accountable property estimated to be the value of the non-accountable property
lost at the hurricane-damaged stores. DeCA was not able to provide us the
support. DeCA headquarters personnel told us that records were maintained at
the stores and everything (including the equipment records) at hurricane-damaged
stores had been destroyed. In addition, DeCA headquarters personnel told us on
numerous occasions that the 35 percent factor they used to estimate the value of
non-accountable property lost was based on historical purchases. In an
August 22, 2006, e-mail message, DeCA Chief of Program Control and Customer
Support told us that DeCA tried to find what percentage of non-accountable
property was compared to equipment inventory and with a range of 33 to
35 percent and so she used 35 percent as an educated estimate. Also, DeCA had
not purchased any equipment for the hurricane-damaged stores at the time of our
site visit as indicated in the comments. DeCA therefore did not and could not
provide us with “non-accountable equipment purchase history of 35 percent of the
total equipment purchases for the hurricane-damaged stores.” We did not verify
the accuracy of the FY 2005 and FY 2006 equipment purchases used to calculate
the non-accountable property lost indicated in the DeCA comments. However,
we believe that the purchases are post Hurricane Katrina purchases and have no
relevance to the 35 percent factor which, DeCA told us, was based on historical
purchases. If the FY 2005 and the FY 2006 amounts in the comments are
accurate, then DeCA non-accountable property value is based on all equipment
purchases and not on accountable property alone as told to us during our audit.




                                   21

Appendix A. Scope and Methodology 

   In a September 15, 2005, letter to the Secretary of Homeland Security, the House
   Government Reform Committee and its Subcommittee on Financial Management
   (now the Subcommittee on Government Management, Organization, and
   Procurement) tasked the Secretary to coordinate with the DoD Office of Inspector
   General to audit and provide oversight to ensure that FEMA funds were used for
   their intended purposes. We issued our report on that audit on September 27,
   2006. We expanded the scope of our audit to include the emergency
   supplemental appropriations to meet DoD needs arising from Hurricane Katrina
   under Public Laws 109-61, 109-62, 109-148, and 109-234.

   We performed our audit at six DoD Components and their respective field
   activities from May 2006 through March 2007 in accordance with generally
   accepted government auditing standards with one exception. The exception
   related to independence because the DoD IG also received emergency
   supplemental appropriations for needs arising from Hurricane Katrina. The
   criteria for our sample selection was that we would not review or visit
   Components in our audit universe that received one percent or less of the total
   emergency supplemental appropriations allocated by the USD(C). The funding
   that DoD IG received did not meet our criteria of sample selection. The exclusion
   of DoD IG from the sample was strictly based on materiality criteria used for the
   sample selection and, therefore, had no impact of the results of the audit. We also
   visited and conducted interviews at the office of the USD(C). We obtained a
   listing of DoD Components receiving emergency supplemental funding from
   USD(C) and included in the universe for our audit all those Components
   receiving more than one percent of the total funding.

   We performed the audit using a combination of preliminary analytical testing, site
   visits, telephone calls, and data calls. We conducted interviews with officials and
   operating personnel at the sites we visited. We examined their funding
   documents to confirm the amounts that USD(C) allocated to them. We reviewed
   obligations to determine if they were for hurricane-related expenses. We
   reviewed travel documents to determine if the amounts paid by DFAS were
   reasonable and valid. The details of our reviews are provided in the following
   paragraphs.

   We included in our universe emergency supplemental appropriations that were
   earmarked for DoD-wide or to specific DoD Components other than the Military
   Services. We did not include the emergency supplemental appropriations that
   were specifically earmarked for the Military Services in our universe because the
   Service audit agencies performed audits at their respective Military Service. We
   judgmentally selected all DoD Components receiving one percent or more of the
   emergency supplemental funding included in our universe of review. However,
   our scope was also limited in that we did not include over $5.6 million of the
   emergency supplemental appropriations in our site selection and reviews. On
   November 3, 2006, after our sample selection and visits to some DoD
   Components, USD(C) provided us with additional information that over
   $5.6 million had been allocated to some DoD Components. As a result, two
   Components that received over $3.9 million, which put them over our one percent


                                       22 

threshold and should have been included in our sample, were not included in the
sample. In addition, one Component that we had previously visited received an
additional $50,000, which was not included in our review. The scope of our audit
was limited in that we did not review the management control program.

Defense Commissary Agency. In FY 2005 and FY 2006, DeCA received over
$52.7 million emergency supplemental appropriation for its Resale, Surcharge,
and Working Capital accounts for DeCA needs arising from Hurricane Katrina.
We verified the amount received with funding documents. We obtained
transaction listings for the Resale, Surcharge, and Working Capital accounts and
reviewed 100 percent of the transactions other than credit card purchases. We
verified reported amounts of the transactions to supporting documentation
including purchase orders, delivery receipts, invoices, and travel vouchers. We
judgmentally selected for review 25 credit card purchase transactions valued at
$42,466 from a universe of 179 transactions valued at $105,924 for the Working
Capital and Surcharge funds. The 25 sample transactions included 8 transactions
over $2,500 and 17 transactions under $2,500. There were no credit card
purchases for the Resale account. We reviewed Government Property Loss and
Damaged reports and compared the items on the report to both inventory records
and DeCA property books to determine the value of DeCA property lost.

Defense Contract Management Agency. In FY 2005 DCMA received about
$2 million and in FY 2006 over $1.6 million in emergency supplemental
appropriations. We verified the amounts to DCMA funding documents. We
reviewed the travel orders of the initial DCMA responder to the hurricane area to
ascertain the mission for the travel. We reviewed the DCMA contract with the
NASA. We also reviewed the DCMA methodology for calculating their FY 2005
and FY 2006 loss reimbursable earnings from the NASA contract. DCMA could
not perform the contract because of Hurricane Katrina. We judgmentally selected
for review 34 of 124 travel orders for DCMA personnel who were evacuated from
the hurricane-affected areas to safe haven locations and filed claims for their
evacuation. The employees filed periodic claims for payment and, therefore, an
employee could have multiple paid vouchers based on the employee’s length of
stay at the safe haven location. Because of the errors we found in some of the
paid claims, we reviewed all the paid claims for all the individuals in our sample.
We reviewed the sampled transactions and verified them to appropriate
supporting documentation such as purchase orders, invoices, delivery receipts,
payment vouchers, and travel vouchers.

Department of Defense Education Activity. DoDEA served as a conduit and
reporting agency for other Components. Funding from the USD(P&R) Quality of
Life Office was passed through DoDEA to other Components. We visited
DoDEA to obtain funding documents to ensure that all the funds it received were
suballocated to the other Components.

        Army and Air Force Exchange Service. AAFES received about
$22.8 million emergency supplemental funding in FY 2005 to provide Tactical
Field Exchange and comfort packs to Military personnel and their families
displaced by Hurricane Katrina. We reviewed Military Interdepartmental
Purchase Requests (MIPR) to determine if the amount AAFES received was equal
to the funding provided by the USD(P&R) Quality of Life Office. We verified


                                    23

obligations and expenditures to supporting documentation including billings,
individual timesheets, truck shipment records, receipts, temporary workers
timesheets, and invoices to determine if the funds were used for their intended
purposes. We reviewed price adjustment memorandums to determine if AAFES
had adjusted billings accurately.

        Navy Exchange Service Command. In FY 2005, the Navy Exchange
Service Command (the Command) received about $12.8 million emergency
supplemental funding to provide Tactical Field Exchange and comfort packs for
Military personnel and their dependents displaced by the hurricane. We verified
the amount received with MIPRs to ascertain if the amount the Command
received from DoDEA was equal to the amount that the USD(P&R) Quality of
Life Office suballocated to DoDEA. The Command provided us with a
transaction listing which included 254 transactions valued at over $6.7 million.
We selected for review all 34 transactions over $50,000 and 44 additional
transactions under $50,000 for a total of 78 transactions valued at about
$6 million. We traced the transactions to supporting documentation including
invoices, travel voucher summaries, Government purchase card bills, journal
entries, Store Use Request forms, receipts, and purchase orders to determine if the
funds were used for DoD Hurricane Katrina needs.

        Navy Installations Command. The Navy Installations Command
received about $10 million of emergency supplemental funding in FY 2005 to
provide “recreation and library materials” for DoD personnel at the disaster area.
We verified the amount with MIPRs to ascertain if the amount was equal to the
amount that the USD(P&R) Quality of Life Office suballocated to DoDEA. We
obtained a transaction listing from the Navy Installation Command and
judgmentally selected for review 51 transactions valued at $6.9 million from a
universe of 130 transactions valued at about $10 million. We verified the
reported amounts with supporting documentation including invoices, purchase
requests, payroll records, and travel vouchers to determine the accuracy of the
transaction listing and to determine if funds were used for the intended purposes.

       Program Executive Office. The Assistant Secretary of the Army for
Acquisition, Logistics, and Technology; Simulation, Training, and
Instrumentation; Program Executive Office, Orlando, Florida, (Program
Executive Office) received about $23.4 million emergency supplemental
appropriations to provide urgent counseling support for members of the Military,
including members of the National Guard and Reservists, and their dependents.
We obtained and reviewed a MIPR to determine if the amount the Program
Executive Office received was equal to the amount that the USD(P&R) Quality of
Life Office suballocated to DoDEA. We reviewed the statement of work in the
contract the Program Executive Office awarded to provide counseling services to
members of the Military and their dependents. We reviewed contractor invoices
and disbursements to determine if the funds were used for other than the services
requested.

Defense Health Program. DHP was the reporting agency for several DoD
Components. DHP received emergency supplemental appropriations of about
$19.3 million in FY 2005 and over $208.1 million in FY 2006 for DoD military
health care needs arising from Hurricane Katrina. DHP suballocated the funds to


                                    24 

other Components and Commands. The Components and Commands further
suballocated their funds to their Subordinate Components. We judgmentally
selected the following Components and Subordinate Components for review.

        Army Components. DHP allocated about $1.4 million emergency
supplemental appropriations to Army Components. We judgmentally selected
Walter Reed Army Medical Center (Walter Reed) and the United States Army
Center for Health Promotion and Preventive Medicine (the Medicine Center) at
Aberdeen, Maryland, for review. Walter Reed received $20,500 and the
Medicine Center received $707,900 of the Army funds. At Walter Reed, we
judgmentally selected for review 23 transactions valued at $27,393 from a
spreadsheet of 71 transactions valued at $41,132. All the transactions had a code
identifying them as Hurricane Katrina related. The universe of transactions and
our sample exceeded the total amount that Walter Reed received. We traced the
transactions to supporting documentation including invoices and travel documents
to determine the accuracy of the transaction listing and to determine if the
transactions were related to Walter Reed hurricane needs. We also reconciled the
invoices to travel vouchers and disbursement reports. At the Medicine Center, we
judgmentally selected 45 transactions valued at $685,899 from a spreadsheet that
included 406 transactions valued at $842,664. The universe of transactions
exceeded the funds that the Medicine Center received. We verified the amounts
on the transactions to supporting documentation including invoices, payroll
records, and travel records to determine the accuracy and reliability of the
transaction listing and to determine if the transactions were related to the
hurricane needs of the Medicine Center. To verify amounts and dates of billings,
we requested and reviewed supporting documentation including invoices, travel
vouchers, and other billings and payment documents of the selected transactions.

         Navy Components. DHP allocated over $10.7 million of emergency
supplemental appropriations to the Navy Components. We judgmentally selected
the Navy Medicine Support Command, Jacksonville; Naval Hospital, Pensacola
Florida; and the Naval Medical Center, Bethesda, Maryland for review. These
Components received about $2.8 million of the $10.7 million that DHP allocated
to the Navy. At the Navy Medicine Support Command we obtained a transaction
listing of obligations and expenditures valued at about $1.9 million. We
performed 100 percent review of the obligations and expenditures on the listing.
We verified the reported amounts with supporting documentation including
contracts, invoices, prompt payment certificates, and requests and acceptances for
services to determine the accuracy of the transaction listing and to determine if
the funds were used for their intended purposes. At the Naval Hospital,
Pensacola, we judgmentally selected for review a sample of 60 transactions
valued at $491,795 from a universe of 229 transactions valued at $581,962. We
traced the transactions to supporting documentation to determine the accuracy of
the listing and the reported amounts and to determine if the expenses were related
to DoD Hurricane Katrina needs. At the Navy Medical Center, Bethesda, we
reviewed 100 percent of the universe of the transactions, valued at $302,628, from
the transaction history that was provided to us. We traced the reported amount to
delivery documents, receipts, invoices, travel documents, and payment vouchers
to determine the accuracy of the reports and to ascertain if the related expenses
were for DoD needs arising from Hurricane Katrina.



                                    25

        Air Force Components. DHP allocated over $82.8 million of the
emergency supplemental appropriations to the Air Force Components for their
needs arising from Hurricane Katrina. We visited Air Education and Training
Command Components located at Keesler Air Force Base (AFB), Mississippi,
and Randolph AFB and Lackland AFB, Texas, and obtained documentation by
data call for Tyndall AFB, Florida. These bases received a combined amount of
about $63.6 million from DHP through the Air Education Command. We also
visited the Air Force Medical Operations agency at Brooks City-Base, Texas,
which received over $13.4 million from DHP through the Air Force Medical
Operations Agency at the Pentagon. At each of these sites, we obtained a
transaction listing and selected transactions for review. At Keesler AFB we
judgmentally selected for review 44 transactions valued at over $10.2 million
from a universe of 58 transactions valued at over $10.4 million. At Randolph
AFB, we judgmentally selected and reviewed 6 transactions valued at $5,440
from a universe of 30 transactions valued at $19,815. At Lackland AFB, we
judgmentally selected and reviewed 8 transactions valued at $58,253 from a
universe of 13 transactions valued at $75,077. For Tyndall AFB, we
judgmentally selected and reviewed 8 transactions valued at about $2.4 million
from 13 transactions valued over $26.9 million. At the Air Force Medical
Operations Agency Brooks City-Base, we reviewed 100 percent of the universe of
transactions valued at about $15.2 million. We verified the selected transactions
with supporting documentation including MIPRs, travel vouchers, billing records,
contracts, purchase orders, invoices, and receipt documents to determine if the
reported amounts were accurate and were for DoD Hurricane Katrina needs.

         Tricare Management Activity (East and West). In FY 2005 and
FY 2006, DHP allocated over $2.4 million of emergency supplemental
appropriations to TMA-East and over $33.8 million to TMA-West. TMA-East
provided us with documentation for obligations and expenditures. The
documentation included MIPRs, contracts, and invoices. We prepared a
transaction listing from the documentation and verified 100 percent of the
amounts on the listing to supporting documentation to determine the accuracy of
our listing. We also verified the listing to the supporting documentation to
determine if the obligations were for DoD needs arising from Hurricane Katrina.
TMA-West provided us with a spreadsheet of cost estimates for the impact of
Hurricane Katrina on its activities. According to TMA-West personnel, the
amounts on the spreadsheet were summary amounts. We were unable to trace the
amounts to source documents. In addition, TMA-West was unable to differentiate
Hurricane Katrina related costs from other costs.

Defense Logistics Agency. In FY 2005 and FY 2006, the USD(C) allocated over
$26 million of emergency supplemental appropriations to DLA. DLA
suballocated the funds to its field offices. We visited the following DLA field
offices.

       Defense Energy Supply Center. DLA suballocated over $1.2 million to
the DESC. We requested and received a transaction history of the emergency
supplemental appropriation from DESC. We judgmentally selected
50 transactions valued at $424,261 from a universe of 69 transactions valued at
$504,902. We reconciled the reported amounts to supporting documentation
including invoices, payment vouchers, and travel vouchers to ascertain the


                                   26 

accuracy of the transaction history and to ascertain if the funds were used for their
intended purposes. We also compared the amounts paid to invoices and billing
documents to ascertain if the amounts paid were the same as the amounts billed
and were valid payments for DoD needs arising from Hurricane Katrina.

         Defense Automation and Production Services. DLA suballocated
$147,000 of emergency supplemental appropriations to the Defense Automation
and Production Service. We obtained an obligation and expenditure report from
the Defense Automation and Production Service. The report included
16 transactions valued at $147,615. We compared the amounts on the listing to
supporting documentation including travel vouchers, purchase requests, delivery
receipts, invoices, and DFAS paid vouchers to determine the accuracy of the
listing and to determine if the transactions were for DoD needs arising from
Hurricane Katrina.

        Defense Reutilization and Marketing Service. DLA suballocated
$2.3 million of emergency supplemental appropriations to the Defense
Reutilization and Marketing Service. The Defense Reutilization and Marketing
Service provided us with a transaction history that included 184 transactions
valued at over $1.4 million. We judgmentally selected 60 transactions valued at
over $1.1 million for review. We verified the reported amounts to supporting
documentation such as invoices, billing documents, and payment vouchers to
determine if the reported amounts were supported and were for DoD Hurricane
Katrina needs.

        Customer Operations and Readiness. DLA suballocated $246,000 of
the emergency supplemental to its Customer Operations and Readiness Office
(J-4). The J-4 office gave us a transaction listing which included 40 transactions
valued at $119,628. We performed 100 percent review of the transactions on the
listing. We compared the amounts on the listing to supporting travel
authorization documents, travel vouchers, and DFAS paid vouchers to determine
the accuracy of the listing and to ascertain if the transactions were for DoD
Hurricane Katrina needs. We recomputed labor hours and overtime pay to
determine the accuracy of labor expenses incurred and paid.

United States Special Operations Command. In FY 2005 and FY 2006, the
USD(C) allocated $3.8 million of emergency supplemental appropriations to the
United States Special Operations Command (USSOCOM). We visited or
contacted the following USSOCOM Components.

        Air Force Special Operations Command. USSOCOM suballocated
$173,000 to the Air Force Special Operations Command (the Command). We
conducted our audit of the Command through data call. We verified the amount
received to funding documents. We judgmentally selected 90 transactions valued
at $40,148 from a spreadsheet provided to us by the Command, which included
242 transactions valued at $148,280. We verified the selected transactions to
supporting documentation including invoices and travel vouchers to determine if
the reported amounts on the spreadsheet were valid and transactions were related
to the Hurricane Katrina needs of the Command. We verified 25 of the selected
transactions to billing documents and payment vouchers to determine if the
amounts paid were equal to the amounts billed.


                                     27

            Naval Special Warfare Command. USSOCOM suballocated about
    $3.6 million of emergency supplemental appropriations to the Naval Special
    Warfare Command which also suballocated over $3.3 million to the Naval
    Special Warfare Group 4 (NSWG-4) and $118,000 to the Naval Special Warfare
    Command-Coronado (Coronado). We visited NSWG-4 and performed the audit
    of Coronado by data call. We verified the amounts received by the Components
    to the funding documents to determine if the amounts they received were equal to
    their suballocations. At NSWG-4, we judgmentally selected for review
    40 transactions valued at about $3.3 million from a spreadsheet of
    169 transactions valued at over $3.3 million that was provided to us. We traced
    the transactions to invoices, contracts, and travel documents to determine the
    accuracy of the spreadsheet and to determine if the transactions were for NSWG-
    4 Hurricane Katrina needs. We also selected for review 13 transactions that were
    processed and paid by DFAS. We verified the amounts paid to invoices, billing
    documents, and paid vouchers. For Coronado we performed 100 percent review
    of 60 transactions valued at $116,908, which was provided to us on a spreadsheet.
    We verified the transactions to invoices and statements of work.

    Use of Computer-Processed Data. We relied on computer-processed data such
    as spreadsheets provided to us by the Components to determine the universe of
    the items we reviewed. We did not evaluate the general and application controls
    for the systems. We compared the data we received to actual hard copy
    documents such as funding documents, MIPRs, and contracts to determine the
    accuracy and reliability of the computer- processed data. Not performing the
    general and application controls of the systems did not affect the results and
    conclusions of our review.

    Use of Technical Assistance. We did not use any technical assistance in
    conducting our audit. However, we obtained legal interpretation on the use of
    funds from Public Laws 109-61 and 109-62 for hurricanes prior to Hurricane
    Katrina and also on the DCMA use of the emergency supplemental appropriation
    as a replacement of lost income from the Office of the Assistant Inspector General
    for Legal Counsel.

    Government Accountability Office High Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area.


Prior Coverage
    Since August 2005, the Department of Defense Inspector General (DoD IG) has
    issued three reports discussing the effects on Hurricane Katrina of DoD assets.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

    DoD IG Report No. D-2007-081, “Financial Management of Hurricane Katrina
    Relief Efforts at the U.S. Army Corps of Engineers,” April 6, 2007




                                        28 

DoD IG Report No. D-2007-031, “The Effects of Hurricane Katrina on the
Defense Information Systems Agency Continuity of Operations and Test
Facility,” December 12, 2006

DoD IG Report No. D-2007-006, “Hurricane Katrina Disaster Recovery Efforts
Related to Army Information Technology Resources,” October 19, 2006

DoD IG Report No. D-2006-118, "Financial Management of Hurricane Katrina
Relief Efforts at Selected DoD Components," September 27, 2006




                                 29

Appendix B. 	DoD Emergency Supplemental
             Appropriations (Other Than the
             U.S. Army Corps of Engineers) by
             Public Law (in thousands)
                              Public Law       Public Law       Public Law       Public Law
                              109-61           109-62           109-1481         109-234
DoD-Wide

O&M2                             $500,000       $1,400,000          $ 24,670

Procurement                                                            10,270       $     2,797

RDT&E3                                                                 27,812              730

DWCF4                                                                   6,140             1,222

MILCON5                                                                45,000

Army/Guard/Reserve
s

Military Personnel                                                    25,353              2,125

Reserve Personnel                                                       9,434             4,071

Guard Personnel                                                      187,452              1,304

O&M                                                                  230,444             42,307

Procurement of
Ammunition                                                                850              700

Other Procurement                                                      36,877             9,136

MILCON                                                               254,300            330,071

1
  Public Law 109-148 reduced the DoD appropriations in the law by $737,089,000 and authorized
the
 Secretary of Defense to allocate the reduction to each applicable appropriated account. The
 amounts reported are net of the reduction.
2
  Operation and Maintenance.
3
  Research, Development, Test, and Evaluation.
4
  Defense Working Capital Fund.
5
  Military Construction.



                                                30 

Appendix B. 	DoD Emergency Supplemental
             Appropriations (Other Than the
             U. S. Army Corps of Engineers) by
             Public Law (in thousands) (Cont.)
                       Public Law   Public Law   Public Law    Public Law
                       109-61       109-62       109-148       109-234
Navy/Marine Corps/
Reserves

Military Personnel                                   61,095         25,994

Reserve Personnel                                    30,634         12,376

O&M                                                 891,084         42,668

Aircraft Procurement                                  3,277            579

Other Procurement                                    65,167         85,040

Procurement of                                        2,210            899
Ammunition

Shipbuilding and                                   1,688,764       775,236
Conversion

RDT&E                                                 2,092         12,000

MILCON                                              291,219         44,770

Family Housing,                                      86,165
Construction

Family Housing,                                      48,889
Operations

Air Force/Guard/
Reserves

Military Personnel                                   89,269         21,610

Reserve Personnel                                     2,014             94

Guard Personnel                                      66,053          1,408




                                     31

Appendix B. 	DoD Emergency Supplemental
             Appropriations (Other Than the
             U.S. Army Corps of Engineers) by
             Public Law (in thousands) (Cont.)
                           Public Law   Public Law     Public Law    Public Law
                           109-61       109-62         109-148       109-234
O&M                                                       513,943        38,636

Aircraft Procurement                                                     13,000

Other Procurement                                         137,953

RDT&E                                                        5,269        6,250

MILCON                                                     87,612       103,100

Family Housing,                                           278,000
Construction

Family Housing, O&M                                        47,019

Other DoD
Organizations

Procurement, Weapons                                        1,360
& Other Tracked Combat
Vehicles

National Guard and                                         16,369
Reservist Equipment

National Defense Sealift                                                 10,000
Fund

Commissary Trust Funds                                     37,680        10,530

Defense Health Program                                    201,550        33,881

Inspector General                                             264           326

MILCON Reserves                                            70,602        24,270

Total                        $500,000     $1,400,000    $5,584,155    $1,657,130




                                        32 

Appendix C. 	Summary of Potential Monetary
             Benefits1
Recommendation
  Reference                      Type of Benefit                   Amount of Benefit

    1.c.                         Questioned Cost                   $935,680

    2.                           Funds put to better use           $6,2022




1
Does not include over $28.9 million that was not efficiently managed and other funds DoD Components
used to supplement their emergency supplemental appropriations that should been put to better use.
2
Net of DFAS over and underpayment of 10 vouchers. Amount could be potentially more after DFAS
reviews of all 267 paid vouchers.




                                                33

Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Personnel and Readiness)
   Director, Quality of Life Office
Assistant Secretary of Defense for Homeland Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Special Operations Command




                                          34 

Other Defense Organizations
Director, Department of Defense Education Activity
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Tricare Management Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs Committee on Oversight
  and Government Reform




                                         35

Under Secretary Defense (Comptroller)
Comments

                        O F F I C E O F THE UNDER S E C R E T A R Y O F D E F E N S E
                                         1100 D E F E N S E P E N T A G O N
                                       W A S H I N G T O N . DC 2 0 3 0 1 - 1 1 0 0
                                                                                        AUG 3    2007

  COMPTROLLER


       M E M O R A N D U M FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                                 SERVICE, OFFICE OF INSPECTOR GENERAL,
                                 DEPARTMENT OF DEFENSE

       SUBJECT: Draft Report entitled "Emergency Supplemental Appropriations for D o D
                Needs Arising From Hurricane Katrina at Selected D o D Components,"
                (Project No. D2006-D000FE-0010.002)

               This memorandum is written in response to the subject June 14, 2007 draft
       report provided to this office for review and comment. Upon review of the draft
       report, we concur with the Office of Inspector General (OIG), Department of Defense
       (DoD) Recommendation 1c and partially concur with Recommendations la, lb, and
       1d. Our detailed response to the report findings and recommendations is outlined in
       the attachment.

              The Department appreciates the opportunity to comment on the subject report.
       M y staff point of contact on this matter is Ms. Joy Marcou. She can be contacted by
       telephone at 703-697-3135 or e-mail atjoy.marcou@osd.mil,




                                                                  Robert P. McNamara
                                                                  Acting Deputy Chief Financial Officer

       Attachments: 

       A s stated 





                                                       37 

 Draft Report on Emergency Supplemental Appropriations for DoD Needs Arising 

              From Hurricane Katrina at Selected DoD Components 

                     (Project No. D2006-D000FE-0010.002) 



The Department of Defense (DoD) Office of the Inspector General, recommended that
the Under Secretary of Defense (Comptroller) (USD(C))/Chief Financial Officer:

R E C O M M E N D A T I O N l a : Develop a formal process for D o D Components to identify
their needs in emergency situations, review their needs and funding requirements, request
additional funding when necessary, and return funding in excess of their needs to the
Comptroller.

D o D R E S P O N S E : Partially concur. A formal process currently exists for Components
to identify needs in emergency situations and is outlined in the D o D Financial
Management Regulation ("DODFMR") Volume 12, Chapter 2 3 , "Contingency
Operations." In order to improve on the existing guidance, O U S D ( C ) Program/Budget
will update this chapter to address issues related to domestic contingencies, no later than
November 2007. The revision will include the requirement that Components be prepared
to quickly and accurately assess, develop, and support operational needs when requesting
supplemental funds. Once funds are received the Components must continually re-assess
requirements, especially when approaching fiscal year-end, and ensure excess funds are
identified and returned expeditiously. Information on managing supplemental funds
issued from transfer accounts and funds that bridge fiscal years will also be included.

The O U S D ( C ) will also address Component responsibilities for managing supplemental
appropriations for disaster operations in the annual memorandum, "Financial
Management Preparation for 2007 Hurricane Season," to be issued in August 2007.

R E C O M M E N D A T I O N l b : Perform an independent assessment and determine whether
a formal investigation should occur for potential Antideficiency Act ( A D A ) violations
related to the Defense Contract Management Agency's (DCMA) use of emergency
supplemental appropriations to purchase computer equipment.

D o D R E S P O N S E : Partially concur. In accordance with the "DoDFMR", Volume 14,
Chapter 3 , the U S D ( C ) does not perform independent assessments to determine whether
formal investigations are required, but instead, may request the affected Component to
perform a preliminary review and provide U S D ( C ) with the results of that review. In this




                                                                                    Attachment




                                              38
instance, DCMA voluntarily performed a preliminary review that revealed DCMA had
violated the Purpose Statute and created a potential ADA violation. The DCMA has
corrected the violation.

RECOMMENDATION lc: Require the Director, Defense Logistics Agency (DLA),
and Director, Defense Health Programs (DHP), to work with the Defense Finance and
Accounting Service and the U.S. Northern Command to seek reimbursement from the
Federal Emergency Management Agency (FEMA) for funds expended on the FEMA
mission assignments.

DoD RESPONSE: Concur. The DLA and DHP are both actively working with
DFAS and USNORTHCOM to verify costs and bill FEMA, no later than
September 30, 2007. As part of the procedures for closing Hurricane Katrina mission
assignments, OUSD(C) will monitor the progress of DLA and DHP until the FEMA
orders are closed.

RECOMMENDATION 1d: Require DoD Components to develop unique accounting
codes to track and record the use of appropriated funds for their needs arising from
disasters and civil emergencies.

DoD RESPONSE: Partially Concur. OUSD(C) agrees that all costs recorded in the
accounting system for disasters or civil emergencies should be supported by coding to
identify each event. This requirement was reinforced in the USD(C) memorandum
issued June 1, 2006, "Financial Management Preparation for 2006 Hurricane Season,"
and will be included in the USD(C) FY 2007 memorandum, to be issued in August 2007
and the U.S. Northern Command FY 2007 Hurricane Execute Order. However,
OUSD(C) does not require coding for costs that are not readily available in the
accounting system, such as flying hours, but allows for an alternate methodology. This
process is outlined in the USD(C) memorandum dated June 23, 2005, "Reporting of
Hurricane Katrina Relief Costs," which follows the Contingency Operations cost
reporting guidance issued in the "DoDFMR" Volume 12, Chapter 23.




                                         39 

Defense Finance and Accounting Service
Comments


                                        DEFENSE FINANCE AND ACCOUNTING SERVICE
                                                                        P.O.   BOX   182317
                                                                COLUMBUS OHIO 4 3 2 1 8 - 2 3 1 7




                                                                                                                                    J   U   L   1   1
     DFAS-JBI/CO                                                                                                                                        2007



     M E M O R A N D U M FOR DIRECTOR, D E P A R T M E N T OF DEFENSE INSPECTOR GENERAL


     SUBJECT:           M a n a g e m e n t C o m m e n t s to D o D I G Draft A u d i t R e p o r t " E m e r g e n c y S u p p l e m e n t a l
                        A p p r o p r i a t i o n s for D o D N e e d s A r i s i n g F r o m H u r r i c a n e K a t r i n a a t S e l e c t e d D o D
                        C o m p o n e n t s , " P r o j e c t N u m b e r D 2 0 0 6 - D 0 0 0 F E - 0 0 1 0 . 0 0 2 , d a t e d J u n e 14, 2 0 0 7



               In a c c o r d a n c e w i t h s u b j e c t draft a u d i t r e p o r t , m a n a g e m e n t c o m m e n t s a r e p r o v i d e d for
     R e c o m m e n d a t i o n 2 , O u r office n o n - c o n c u r r e d w i t h R e c o m m e n d a t i o n 2 a n d c o n s i d e r t h e
     recommendation closed.


                M y p o i n t o f c o n t a c t for a d d i t i o n a l i n f o r m a t i o n is G a r y B e t h e a , D F A S - J B I / C O , at
     6 1 4 - 6 9 3 - 0 8 4 0 or D S N 8 6 9 - 0 8 4 0 .


                                                                                                                    A




                                                                                C a r l t o n E. F r a n c i s
                                                                                Deputy Director, D F A S C o l u m b u s


     Attachment:
     A s stated




                                                                     www.dfas.mil 

                                                             Your Financial Partner @ Work 





                                                                               40
        M a n a g e m e n t C o m m e n t s to D o D I G Draft A u d i t Report " E m e r g e n c y S u p p l e m e n t a l 

         A p p r o p r i a t i o n s for D o D N e e d s A r i s i n g F r o m H u r r i c a n e K a t r i n a at S e l e c t e d D o D 

            C o m p o n e n t s , " Project N u m b e r D 2 0 0 6 - D 0 0 0 F E - 0 0 1 0 . 0 0 2 , d a t e d J u n e 14, 2 0 0 7 




R e c o m m e n d a t i o n 2: W e r e c o m m e n d t h a t D i r e c t o r , D e f e n s e F i n a n c e a n d A c c o u n t i n g S e r v i c e ,
perform an audit of travel and relocation v o u c h e r s paid with the e m e r g e n c y s u p p l e m e n t a l
appropriations to Defense Contract Management Agency employees and take corrective actions
based o n the results of the audit.


C u r r e n t M a n a g e m e n t C o m m e n t s ; N o n - c o n c u r . T h e D F A S C o l u m b u s Travel Office generally
concurred with the D o D I G findings and r e c o m m e n d a t i o n s during the discovery p h a s e of the
audit. W e h a v e taken the specific steps and c o r r e c t i v e actions to a d d r e s s the deficiencies
identified b y the D o D I G .               W e a g r e e that t h e initial D F A S 100 p e r c e n t a u d i t o f 2 6 7 D C M A
H u r r i c a n e Katrina e v a c u a t i o n v o u c h e r s disclosed a very h i g h error rate. A s a result, the
a p p r o p r i a t e debt collection letters, a s well as u n d e r p a y m e n t letters, w e r e sent to travelers
incorrectly paid-
in a d d i t i o n , D F A S C o l u m b u s T r a v e l O f f i c e c o m p l e t e d a r e v i e w t o d e t e r m i n e t h e p o s s i b i l i t y o r
e x t e n t o f s y s t e m i c p r o b l e m s / i s s u e s i n v o l v e d in t h e h i g h e r r o r r a t e . T h e r e v i e w i d e n t i f i e d t h e
following i s s u e s ; ( 1 ) t h e t r a v e l office s t a f f s u n f a m i l i a r i t y w i t h p a y m e n t o f e v a c u a t i o n c l a i m s ;
(2) t h e c o m p l e x i t y o f t h e p a y m e n t s , (3) t h e r e q u i r e m e n t t o e x p e d i t i o u s l y p r o c e s s e v a c u a t i o n
v o u c h e r s d u e to the c i r c u m s t a n c e s of the travelers; (4) m a n y c o m p u t a t i o n and j u d g m e n t errors o n
t h e p a r t o f t e c h n i c i a n s led t o t h e h i g h e r r o r r a t e . A l s o , t h o u g h t h e r e w a s a s i g n i f i c a n t s y s t e m
( W i n I A T S ) e n h a n c e m e n t p a c k a g e i m p l e m e n t e d t w o w e e k s a f t e r t h e t r a v e l office s t a r t e d
p r o c e s s i n g e v a c u a t i o n c l a i m s , l e s s t h a n 10 D C M A c l a i m s w e r e p a i d p r i o r t o t h e c h a n g e b e i n g
implemented.


S u b s e q u e n t l y , the D o D I G initiated a r e v i e w o f t h e 2 6 7 audited v o u c h e r s by D F A S C o l u m b u s
Travel Office.            B e c a u s e 11 o f t h e 13 a u d i t e d v o u c h e r s w e r e in e r r o r , t h e D o D I G t e r m i n a t e d t h e i r
r e v i e w . T h e D F A S C o l u m b u s Travel O f f i c e p r o v i d e d j u s t i f i c a t i o n a n d s u p p o r t t o t h e D o D I G
s h o w i n g t h a t o n l y 5 o f 13 e v a c u a t i o n v o u c h e r s w e r e i n c o r r e c t l y c o m p u t e d          O f t h e five i n c o r r e c t
v o u c h e r s , three error a m o u n t s w e r e less than $ 3 3 dollars, of w h i c h o n e w a s an eighty-nine cent
audit spreadsheet error                   T h e r e m a i n i n g t w o e r r o r s w e r e u n d e r p a y m e n t a m o u n t s o f $133 a n d $ 5 5
dollars respectively.


A l s o , t h e D o D I G i d e n t i f i e d t h a t o n e e m p l o y e e w a s i n c o r r e c t l y p a i d $ 1 , 5 0 0 p e r m o n t h for l o d g i n g
e x p e n s e s c l a i m e d for f o u r m o n t h s ( S 6 , 0 0 0 ) b a s e d o n h a n d w r i t t e n r e c e i p t s . T h e e m p l o y e e
p r o v i d e d h a n d w r i t t e n r e c e i p t s for four o f t h e f o u r m o n t h s , a n d n o t t h r e e o f t h e f o u r m o n t h s a s
stated by the D o D I G H o w e v e r , under n o r m a l c i r c u m s t a n c e s , the D F A S C o l u m b u s Travel
O f f i c e d o e s n o t r e c e i v e o r p r o c e s s " a t y p i c a l " r e c e i p t s for l o d g i n g a s t h e y d i d for s e v e r a l of the
h u r r i c a n e evacuation c l a i m s . F u r t h e r m o r e , w e p r o v i d e d the D o D I G with a copy of the Joint
T r a v e l R e g u l a t i o n (MR) V o l u m e II, p a r a C 1 3 1 0 , w h i c h s h o w s t h a t a h a n d w r i t t e n r e c e i p t is
w i t h i n t h e r e g u l a t i o n g u i d e l i n e s for s u f f i c i e n t d o c u m e n t a t i o n for a l o d g i n g r e c e i p t .




                                                                                   1




                                                                                41
T h e D F A S C o l u m b u s Travel Office has completed the following additional corrective actions
to e n s u r e a d e q u a t e i n t e r n a l c o n t r o l s a r e in p l a c e a n d a d d r e s s t h e d e f i c i e n c i e s i d e n t i f i e d b y t h e
D o D I G : (1) reviewed the other 2 5 4 "audited                              v o u c h e r s a g a i n to e n s u r e there are n o m o r e
"questionable             or h a n d w r i t t e n l o d g i n g r e c e i p t s ; ( 2 ) r a n d o m c h e c k o f s e v e r a l v o u c h e r s a n d a u d i t
c o m p u t a t i o n s to e n s u r e the W i n I A T S system w a s properly c o m p u t i n g the r e d u c e d per d i e m rate
( w h e n a p p l i c a b l e , i.e., a f t e r first 3 0 d a y s o f T Q S E ) , a n d t h i s d i d n o t identify a n y o t h e r " a t y p i c a l
receipts      o r s y s t e m p r o b l e m s for c o m p u t i n g p e r d i e m ; ( 3 ) D F A S C o l u m b u s T r a v e l O f f i c e h a s
s h a r e d t h e a u d i t r e s u l t s a n d l e s s o n s l e a r n e d for p r o c e s s i n g e m e r g e n c y e v a c u a t i o n v o u c h e r s w i t h
the D F A S Indy travel office.


In s u m m a r y , the D F A S C o l u m b u s Travel Office d o e s not c o n c u r with the                                       recommendation            to
c o n d u c t a n o t h e r 100 p e r c e n t a u d i t o f D C M A             Hurricane        Katrina evacuation vouchers.                         Such
actions w o u l d not be cost effective and place additional burden on D o D e m p l o y e e s affected by
the H u r r i c a n e Katrina disaster.


E s t i m a t e d C o m p l e t i o n D a l e : R e c o m m e n d a t i o n is c o n s i d e r e d c l o s e d .




                                                                                 42
Defense Commissary Agency Comments


                                                      DEFENSE COMMISSARY AGENCY
                                                                          HEADQUARTERS
                                                                           1300 E A V E N U E
                                                                F O R T L E E , V I R G I N I A 23801-1800



                   REPLY T O
                   ATTENTION OF

     c c                                                                                                                                    JUL 2 2007
     M E M O R A N D U M FOR DEPARTMENT OF DEFENSE, INSPECTOR                                                                GENERAL
                                              (ATTN:          AUD-DFS)


     SUBJECT:            R e p o r t o n E m e r g e n c y S u p p l e m e n t a l A p p r o p r i a t i o n s for D o D N e e d s A r i s i n g             from
                         H u r r i c a n e K a t r i n a at S e l e c t e d D o D C o m p o n e n t s ( P r o j e c t N o . D 2 0 0 6 - D 0 0 0 F E -
                         0010.002)


              W h i l e t h e r e w e r e n o r e c o m m e n d a t i o n s for t h e D e f e n s e C o m m i s s a r y A g e n c y , p l e a s e find
     a t t a c h e d o u r c o m m e n t s t o t h e s u b j e c t r e p o r t for y o u r c o n s i d e r a t i o n w h e n y o u f i n a l i z e y o u r
     report.


              If y o u h a v e a n y q u e s t i o n s o r c o m m e n t s , p l e a s e c o n t a c t M s . D i a n a G r a f f at ( 8 0 4 ) 7 3 4 - 8 1 0 3 ,
     D S N 6 8 7 - 8 1 0 3 , or diana.graffiajdeca.mil.




                                                                               Patrick B. N i x o n
                                                                               Director


     Attachment:
     As stated




                       Patrons, Workforce and Stakeholders working together to create "Raving F a n s . '




                                                                                 43
                                                 Defense Commissary Agency Comments
 R e p o r t on E m e r g e n c y S u p p l e m e n t a l A p p r o p r i a t i o n s for D o D N e e d s A r i s i n g f r o m H u r r i c a n e
                K a t r i n a at Selected D o D C o m p o n e n t s ( P r o j e c t N o . D 2 0 0 6 - D 0 0 0 F E - 0 0 1 0 . 0 0 2 )


            T h e D e f e n s e C o m m i s s a r y A g e n c y ( D e C A ) d o e s n o t c o n c u r w i t h t h e T a b l e #2 f o o t n o t e
" D e C A o b l i g a t e d $ 1 . 5 m i l l i o n for n o n - a c c o u n t a b l e p r o p e r t y lost. W e c o n s i d e r t h i s o b l i g a t i o n t o b e
overstated, but w e cannot quantify the dollar a m o u n t                                    a s D e C A p r o p e r l y a c c o u n t s for p u r c h a s e d
property I A W D o D regulatory requirements.


            R e f e r e n c e p a g e n i n e , first p a r a g r a p h , l i n e s e v e n , " S p e c i f i c a l l y , D e C A , t h e D e f e n s e C o n t r a c t
M a n a g e m e n t A g e n c y , ... that received funding through the D e p a r t m e n t o f D e f e n s e Education
Activity ( D o D E A ) did n o t m a n a g e a total of over $26.8 m i l l i o n o f e m e r g e n c y s u p p l e m e n t a l
appropriates efficiently.


              In T a b l e 2 s h o w n o n p a g e n i n e , D e C A T o t a l F u n d s O b l i g a t e d a r e S 5 2 . 7 M , F u n d s N o t
M a n a g e d E f f i c i e n t l y a r e l i s t e d a s $ 0 . 0 w i t h a f o o t n o t e b e l o w " D e C A o b l i g a t e d $ 1 . 5 m i l l i o n for n o n
a c c o u n t a b l e p r o p e r t y lost. W e consider this obligation to b e overstated, but w e cannot quantify the
dollar amount.


            D o D Instruction N u m b e r 5 0 0 0 . 6 4 dated N o v e m b e r 2, 2 0 0 6 , subject: Accountability a n d
M a n a g e m e n t o f D o D - O w n e d E q u i p m e n t a n d O t h e r A c c o u n t a b l e P r o p e r t y is t h e c u r r e n t D o D
g u i d a n c e for e s t a b l i s h m e n t o f p r o p e r t y r e c o r d s . T h i s r e g u l a t i o n s p e c i f i e s a c c o u n t a b l e p r o p e r t y
r e c o r d s s h a l l b e e s t a b l i s h e d for all p r o p e r t y p u r c h a s e d , o r o t h e r w i s e o b t a i n e d , h a v i n g a u n i t
acquisition cost of $ 5 , 0 0 0 or m o r e , leased assets (capital leases) of a n y v a l u e , a n d assets that are
s e n s i t i v e or c l a s s i f i e d ( s e e V o l u m e 10 T a b l e 61 o f D o D 4 1 0 0 . 3 9 M ) . A l s o , p r o p e r t y r e c o r d
s u p p o r t i n g d o c u m e n t a t i o n shall b e m a i n t a i n e d in a c c o r d a n c e w i t h D o D D i r e c t i v e 5 0 1 5 . 2 ,
R e f e r e n c e 1.


            T h e n o n - a c c o u n t a b l e p r o p e r t y in q u e s t i o n c o n s i s t s o f all e q u i p m e n t i t e m s v a l u e d at l e s s t h a n
$ 2 , 5 0 0 e a c h p e r D e C A p o l i c y g u i d a n c e . T h e s e e q u i p m e n t i t e m s a r e u s e d in c o m m i s s a r y s t o r e retail
s h o p p i n g areas, as well as b a c k r o o m supply, administrative offices, and food preparation areas.
T h e s e e q u i p m e n t i t e m s a r e p u r c h a s e d at o r b e l o w t h e $ 2 , 5 0 0 t h r e s h o l d a n d c o n s i s t o f s u c h i t e m s a s
shopping carts, display racks, training area furniture, pieces o f r e p l a c e m e n t shelving to r e p l a c e
original shelving, and other small e q u i p m e n t articles. N o n - a c c o u n t a b l e items p u r c h a s e d w i t h
e m e r g e n c y s u p p l e m e n t a l f u n d s w e r e u s e d t o e s t a b l i s h a n d f u r n i s h t h e t w o t e m p o r a r y s t o r e s at
Gulfport and K e e s l e r after H u r r i c a n e K a t r i n a d e s t r o y e d t h e t w o existing stores. T h e e m e r g e n c y
r e s p o n s e t e a m s and follow-on personnel sent to the t e m p o r a r y store sites p u r c h a s e d a majority of
t h e s e i t e m s for t h e t e m p o r a r y s t o r e s in t h e first 4 w e e k s f o l l o w i n g t h e d i s a s t e r . A f e w o f t h e i t e m s
w e r e a v a i l a b l e i n o t h e r D e C A s t o r e s a n d t r a n s f e r r e d t o t h e g a i n i n g s t o r e t o fulfill i m m e d i a t e n e e d o f
t h e i t e m s in q u e s t i o n .


            T h e A g e n c y h e a d q u a r t e r s p r o v i d e d D o D 1G a u d i t o r s w i t h a n o n - a c c o u n t a b l e e q u i p m e n t
p u r c h a s e h i s t o r y o f 3 5 p e r c e n t o f t h e total e q u i p m e n t p u r c h a s e s for t h e h u r r i c a n e - d a m a g e d s t o r e s .
T h e A g e n c y d o e s n o t m a i n t a i n p r o p e r t y r e c o r d s for t h e n o n - a c c o u n t a b l e p r o p e r t y b e c a u s e t h e r e is
n o r e g u l a t o r y r e q u i r e m e n t t o m a i n t a i n p r o p e r t y r e c o r d s as n o t e d a b o v e . T h e A g e n c y d i d p o s t
p r o p e r t y r e c o r d s for a c c o u n t a b l e i t e m s , as r e q u i r e d b y D o D 4 1 0 0 . 3 9 M . T h e A g e n c y ' s e s t i m a t e for




                                                                                                                                                          Attachment




                                                                                   44
non-accountable property expenses are based on conservative, historical percentages of equipment
p u r c h a s e d in t h e t w o p r i o r fiscal y e a r s a n d c u r r e n t y e a r o b l i g a t i o n s f r o m t h o s e e q u i p m e n t i t e m s
reported to t h e Defense P r o p e r t y Accountability S y s t e m .


            F Y 2 0 0 5 total store o p e r a t i o n e q u i p m e n t p u r c h a s e s totaled $ 2 4 , 5 0 0 , 0 0 0 . F Y 2 0 0 5
a c c o u n t a b l e e q u i p m e n t p u r c h a s e d a n d r e c o r d e d w a s $ 1 4 , 2 6 0 , 7 7 4 , o r 5 8 . 2 p e r c e n t o f t h e total
e q u i p m e n t p u r c h a s e s . F Y 2 0 0 5 n o n - a c c o u n t a b l e e q u i p m e n t p u r c h a s e d w a s $ 1 0 , 2 3 9 , 2 2 6 , or 4 1 . 7
percent of equipment purchases. (Includes September 2005 when w e established two temporary
stores on short notice.)


            F Y 2 0 0 6 total store operation e q u i p m e n t purchases totaled $ 2 6 , 3 0 0 , 0 0 0 . F Y 2 0 0 6
a c c o u n t a b l e e q u i p m e n t p u r c h a s e d and r e c o r d e d w a s $ 8 , 2 0 1 , 0 9 9 , or 31.2 p e r c e n t o f total e q u i p m e n t
purchases. F Y 2 0 0 6 n o n - a c c o u n t a b l e e q u i p m e n t p u r c h a s e d w a s $ 1 8 , 0 9 8 , 9 0 1 , or 68.8 percent of
e q u i p m e n t c o s t s . ( T h i s i n c l u d e s t h e e x i s t i n g N C B C G u l f p o r t C o m m i s s a r y r e o p e n i n g w i t h all n e w
e q u i p m e n t after b e i n g c o m p l e t e l y g u t t e d , r e h a b b e d , a n d r e f u r b i s h e d . )


            F Y 2 0 0 7 t o t a l s t o r e o p e r a t i o n e q u i p m e n t a c c o u n t b u d g e t e d is $ 2 0 , 3 8 1 , 0 0 0 .        Total
o b l i g a t i o n s in D B M S a s o f M a r c h 3 1 , 2 0 0 7 , w e r e $ 1 3 , 7 6 0 , 6 6 0 . F Y 2 0 0 7 a c c o u n t a b l e e q u i p m e n t
p u r c h a s e s r e c o r d e d in D P A S as o f M a r c h 3 1 , 2 0 0 7 , w e r e $ 4 , 8 2 1 , 8 1 2 , o r 3 5 p e r c e n t o f t o t a l
obligations to date. F Y 2 0 0 7 n o n - a c c o u n t a b l e e q u i p m e n t p u r c h a s e d is $ 8 , 9 3 8 , 8 4 8 , o r 64.9 percent
of current obligations.


            A d d i t i o n a l l y , t h e a n t i c i p a t e d s t o r e e q u i p m e n t list for t h e n e w K e e s l e r A F B , M i s s i s s i p p i ,
c o m m i s s a r y t o r e p l a c e t h e o n e d e s t r o y e d in H u r r i c a n e K a t r i n a t o t a l s $ 2 , 1 4 6 , 1 6 9 at t h i s t i m e . O f t h i s
a m o u n t , $ 1 , 6 4 4 , 2 9 9 w a s for a c c o u n t a b l e p r o p e r t y i t e m s a n d $ 5 0 1 , 8 7 0 for n o n - a c c o u n t a b l e
e q u i p m e n t items, or 2 3 percent o f the total e q u i p m e n t p u r c h a s e s . T h e s e e q u i p m e n t i t e m s are t a k e n
f r o m t h e p r e l i m i n a r y , draft e q u i p m e n t l i s t i n g n o t y e t      finalized.      The building has only recently
broken g r o u n d and w e anticipate grand o p e n i n g o f this n e w store in July 2 0 0 9 . T h e e q u i p m e n t
i t e m s w i l l b e p u r c h a s e d in F Y 2 0 0 8 a n d 2 0 0 9 u s i n g s u p p l e m e n t a l f u n d i n g p r o v i d e d t o D e C A
s p e c i f i c a l l y for t h e n e w K e e s l e r A F B s t o r e .


            Based on historical reported D P A S accountable property records, D e C A annually spends 35
p e r c e n t o r m o r e o f t h e i r a n n u a l s t o r e o p e r a t i o n e q u i p m e n t a c c o u n t for n o n - a c c o u n t a b l e e q u i p m e n t
i t e m s . T h e e s t i m a t e o f 3 5 p e r c e n t w a s c o n s e r v a t i v e l y v a l i d w h e n p r o v i d e d t o t h e D o D I G a n d no
c h a n g e s a r e a n t i c i p a t e d at t h i s t i m e . I n t h e d a y s f o l l o w i n g t h e d i s a s t e r , e s t a b l i s h i n g a s o u r c e o f f o o d
a n d w a t e r for e m e r g e n c y r e s p o n s e t e a m s s e n t o n - s i t e b y t h e M i l i t a r y S e r v i c e s in a t e m p o r a r y f a c i l i t y
w a s t h e p r i m a r y o b j e c t i v e for t h e D e C A t e a m s o n - s i t e at G u l f p o r t a n d K e e s l e r . A s s u c h , a c c o u n t i n g
for e a c h $ 8 8 s h o p p i n g c a r t a n d o t h e r n o n - a c c o u n t a b l e e q u i p m e n t r e c o r d - k e e p i n g a c t i v i t i e s w a s n o t
fully p o s s i b l e in o r d e r t o m a k e o p e r a t i o n a l p l a n s s u c c e s s f u l .


            T h e A g e n c y ' s g o a l t o o p e n t e m p o r a r y s t o r e s for t h e c o n v e n i e n c e a n d s e r v i c e o f t h e p e o p l e
r e s p o n d i n g t o t h e s e t w o i n s t a l l a t i o n s w a s fully s u p p o r t e d a n d e n c o u r a g e d b y O S D . B a s e d o n t h e s e
h i s t o r i c a l p e r c e n t a g e s , 3 5 p e r c e n t o f all e q u i p m e n t p u r c h a s e s b e i n g n o n - a c c o u n t a b l e e q u i p m e n t is
v a l i d , f i n a n c i a l l y c o n s e r v a t i v e , a n d w e l l w i t h i n r e a s o n . A d d i t i o n a l l y , D e C A fully c o m p l i e d w i t h
D o D r e g u l a t o r y r e q u i r e m e n t s for t h e a c c o u n t a b i l i t y o f " a c c o u n t a b l e " a n d " n o n - a c c o u n t a b l e "
equipment purchased b e l o w the D o D cost threshold.




                                                                                     2




                                                                                  45
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Henry Y. Adu
Emmanuel A. Appiah
Charlisa D. Lawrence
Sharon A. Loftin
Richard W. Straw
Sonya T. Davis
Erin S. Hart
